<html>
<title> - ADDRESSING TRANSPARENCY IN THE FEDERAL BUREAUCRACY: MOVING TOWARD A MORE OPEN GOVERNMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
  ADDRESSING TRANSPARENCY IN THE FEDERAL BUREAUCRACY: MOVING TOWARD A 
                          MORE OPEN GOVERNMENT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2013

                               __________

                            Serial No. 113-9

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
80-143                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0562756a45667076716d6069752b666a682b">[email&#160;protected]</a>  


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        VACANCY
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 13, 2013...................................     1

                               WITNESSES

Ms. Angela Canterbury, Director of Public Policy, Project on 
  Government Oversight
    Oral Statement...............................................     5
    Written Statement............................................     8
Mr. Jim Harper, Director of Information Policy Studies, CATO 
  Institute
    Oral Statement...............................................    20
    Written Statement............................................    22
Mr. Daniel Schuman, Policy Counsel, Director of the Advisory 
  Committee on Transparency, The Sunlight Foundation
    Oral Statement...............................................    70
    Written Statement............................................    72
Ms. Celia Viggo Wexler, Senior Washington Representative, Center 
  for Science and Democracy, Union of Concerned Scientists
    Oral Statement...............................................    81
    Written Statement............................................    83

                                APPENDIX

Delivering on Open Government: The Obama Administration's 
  Unfinished Legacy..............................................   123
The Honorable Elijah E. Cummings, a Member of Congress from the 
  State of Maryland, Opening Statement...........................   154
Request to Supplement Angela Canterbury's Testimony in the March 
  13, 2013 Hearing Record........................................   156


  ADDRESSING TRANSPARENCY IN THE FEDERAL BUREAUCRACY: MOVING TOWARD A 
                          MORE OPEN GOVERNMENT

                              ----------                              


                       Wednesday, March 13, 2013,

                  House of Representatives,
             Committee on Oversight, and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Turner, Duncan, 
McHenry, Walberg, Amash, DesJarlais, Gowdy, Farenthold, 
Woodall, Massie, Meadows, DeSantis, Cummings, Maloney, Clay, 
Connolly, Speier, Duckworth, and Davis.
    Staff Present: Ali Ahmad, Majority Communications Advisor; 
Alexia Ardolina, Majority Assistant Clerk; Kurt Bardella, 
Majority Senior Policy Advisor; Richard A. Beutel, Majority 
Senior Counsel; Molly Boyl, Majority Parliamentarian; Caitlin 
Carroll, Majority Deputy Press Secretary; Steve Castor, 
Majority Chief Counsel, Investigations; Gwen D'Luzansky, 
Majority Research Analyst; Adam P. Fromm, Majority Director of 
Member Services and Committee Operations; Linda Good, Majority 
Chief Clerk; Christopher Hixon, Majority Deputy Chief Counsel, 
Oversight; Mark D. Marin, Majority Director of Oversight; Tegan 
Millspaw, Majority Professional Staff Member; Laura L. Rush, 
Majority Deputy Chief Clerk; Scott Schmidt, Majority Deputy 
Director of Digital Strategy; Peter Warren, Majority 
Legislative Policy Director; Rebecca Watkins, Majority Deputy 
Director of Communications; Krista Boyd, Minority Deputy 
Director of Legislation/Counsel; Jennifer Hoffman, Minority 
Press Secretary; Carla Hultberg, Minority Chief Clerk; Elisa 
LaNier, Minority Deputy Clerk; Dave Rapallo, Minority Staff 
Director; Mark Stephenson, Minority Director of Legislation; 
and Cecelia Thomas, Minority Counsel.
    Chairman Issa. Good morning. The committee will come to 
order.
    The Oversight Committee exists to secure two fundamental 
principles: first, Americans have a right to know that the 
money Washington takes from them is well spent; and, second, 
Americans deserve an efficient, effective Government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights. Our solemn responsibility 
is to hold Government accountable to taxpayers, because 
taxpayers have a right to know what they get from their 
Government. It is our job to work tirelessly in partnership 
with citizen watchdogs to deliver the facts to the American 
people and bring genuine reform to the Federal bureaucracy.
    Before I begin this hearing today, as our staffs have 
discussed, I am moving to add a majority and a minority seat to 
the Subcommittee on Energy Policy, Health Care and 
Entitlements. Dr. Gosar is to be added to the subcommittee on 
the majority side and I would now yield to the ranking member 
if he is prepared to designate a minority member.
    Mr. Cummings. Mr. Chairman, by the end of the day we will 
do that.
    Chairman Issa. Without objection, so ordered.
    I will now recognize myself for a short opening statement.
    It is partisan to say that President Obama took office 
guaranteeing us or assuring us of the most transparent 
presidency in history. But it is not partisan to say we can do 
better. We can do better in this day and age than we did in the 
previous administration. Together, that is our challenge.
    So four years later, am I going to be the person who says, 
hurray, we are more transparent? No, just the opposite. With 
the ranking member, our goal is to change transparency by 
legislation and by oversight.
    Today, as we discuss the Freedom of Information Act and our 
intent to take it to the next step, I believe that we, this 
committee, have an obligation and an opportunity to create more 
transparency not with any one administration, not with a 
president well intended and perhaps a cabinet, off and on, 
different positions, well intended, but as a matter of the 
people's right.
    The truth is all administrations have a tendency to want to 
keep private their failures and make public their 
accomplishments. That is a natural state and it is one that we 
will not change here by asking for it to change. The only way 
that can happen is if rhetoric is also matched by law, if in 
fact law is enforced and overseen.
    The Sunlight Foundation has done extensive work on the 
accuracy of data posted by not just this administration, but 
administrations before. Their work shows that, in fact, we can 
do better. This hearing today is not about one agency or about 
one administration, but, in fact, the fact that administrations 
have been struggling with posting records accurately.
    Seventeen years after the legal requirement to do so was 
signed into law, the system is still broken and it needs 
immediate reform. The committee has worked on a bipartisan 
basis to improve transparency by providing greater access to 
information, but this isn't enough. In the last Congress, we 
passed out of this committee and out of the Congress on a voice 
vote the DATA Act, we passed the Grant Act and a draft FOIA 
reform bill that was crafted by the ranking member. All of this 
is high on our priority in this Congress.
    The legacy of the ranking member and myself is, in fact, 
not about what we do during our time, but in fact what happens 
after we leave this office. Have we put in place systems and 
laws and an oversight practice that, for generations to come, 
can be meaningfully better than the generations before us? That 
is our goal here today. It is the reason that I am thrilled at 
this hearing and I am looking forward to a markup in just a few 
days that is intended to begin that down payment on system 
changes.
    With that, I recognize the ranking member for his opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
holding this hearing today. This is Sunshine Week, when we 
celebrate the importance of transparency and openness in 
government. Sunshine Week is also an appropriate time to 
conduct oversight and evaluate the state of transparency in our 
Government.
    On his first day in office, President Obama made clear that 
open government would be a priority in his administration. The 
President issued a memo on transparency that formed the basis 
for the open government initiative, a comprehensive set of 
efforts to increase public access to government information. 
Also on his first day in office the President issued a memo on 
the Freedom of Information Act, reversing the Bush 
administration's presumption against disclosure and instituting 
a presumption in favor of disclosure and the attorney general 
issued a memo informing agencies that the Justice Department 
would not defend FOIA denials in court unless agencies have a 
reasonable belief that there will be foreseeable harm from 
disclosure.
    I think it is fair to say that the President jump-started 
transparency efforts in the executive branch. There have been 
significant successes in the last four years; however, there 
are still areas in need of improvement, and we can always do 
better and I certainly agree with the chairman on that note.
    I ask unanimous consent to place in the record a report 
this week by the Center for Effective Government entitled 
Delivering on Open Government: The Obama Administration's 
Unfinished Legacy.
    Chairman Issa. Without objection, so ordered.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    This report finds as follows: ``To secure its legacy as a 
champion of transparency, the Administration will need to do 
more to ensure that agencies actually implement the 
transparency policies it established, address gaps left in its 
policy reforms, and improve its records on national security 
related secrecy.''
    In addition, one of the criticisms in the report is aimed 
at Congress. The report finds that the ``slow pace of secrecy 
reform within the executive branch has been aided and abetted 
by lack of robust oversight from Congress.''
    I agree that bipartisan oversight is critical to holding 
agencies accountable. That is why Chairman Issa and I recently 
worked together to send a letter to the Justice Department 
asking for information about several issues regarding FOIA 
implementation. In addition, Congress can make it easier for 
the American people to obtain access to government records.
    This week, the chairman and I are releasing a draft bill 
called the FOIA Oversight and Implementation Act. In the spirit 
of transparency and bipartisanship, we have made it available 
on the committee's Web site and we welcome feedback before we 
formally introduce it. This bill would codify in law what the 
President has done administratively: it would establish a legal 
presumption under FOIA in favor of disclosure. It would also 
create a pilot project to give FOIA requesters a single place 
to make requests and access records electronically.
    I appreciate the chairman's bipartisan work on this bill 
and I hope we will take swift action to get it on its way to 
becoming law.
    I am also pleased to be cosponsoring a bill with 
Representative Clay. He is introducing it this week to improve 
transparency and accountability of federal advisory committees.
    I look forward to hearing from the witnesses here today 
about these proposals and any other ideas you might have for 
shining light on our government's observations.
    With that, Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    I now recognize the gentleman from Florida for one minute.
    Mr. Mica. Well, thank you.
    Very briefly, and I hope our subcommittee can look further 
at the lack of FOIA responsiveness from this administration, 
but everyone heard the President when he said my administration 
is committed to creating an unprecedented level of openness in 
government. Openness will strengthen our democracy and promote 
efficiency and effectiveness in government.
    Then he went on with Attorney General Holder to issue 
memorandums urging agencies to adopt a presumption of 
disclosure when processing FOIA requests and not to withhold 
any document simply because they may legally do so.
    Now, the facts are, in fact, our staff report shows that, 
only 37.5 percent of all FOIA requests received were actually 
responded to. Another report found that 62 of 99 agencies 
surveyed had not updated their regulations since the 
President's and attorney general's edict. So those are the 
facts.
    Finally, not only is the public not getting information, 
but I would like to submit requests from last year, 2011, that 
I submitted from this committee and also from the 
Transportation Committee of agencies that did not respond to 
members of Congress.
    Chairman Issa. Without objection, those will be placed in 
the record.
    Mr. Mica. So whether it is Fast and Furious we are still 
trying to get information on or requests for legitimate full 
committees of Congress, this Administration has been the least 
transparent and least responsive to the public and to the 
Congress, and I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to our distinguished panel of witnesses.
    All members will have seven days in which to submit opening 
statements.
    First up is Ms. Angela Canterbury. She is the Director of 
Public Policy at the Project on Government Oversight. Welcome.
    Mr. Jim Harper is Director of Information Policy Studies at 
the Cato Institute.
    Mr. Daniel Schuman is Policy Counsel of The Sunlight 
Foundation, previously mentioned in my opening statement.
    And Ms. Celia Wexler is the Senior Washington 
Representative for the Union of Concerned Scientists.
    Welcome, all.
    Pursuant to the rules of the committee, would you please 
rise and raise your right hand to take the oath?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Chairman Issa. Please have a seat.
    Let the record reflect affirmative answers by all.
    You are all skilled Washington experts, so your entire 
statements will be placed in the record, and you know how the 
clocks work in front of you. Please stay as close to five 
minutes as possible to leave maximum opportunity for follow-up 
questions.
    Ms. Canterbury.

                       WITNESS STATEMENTS

                 STATEMENT OF ANGELA CANTERBURY

    Ms. Canterbury. Chairman Issa, Ranking Member Cummings, 
members of the committee, thank you for this honor and for your 
attention to government transparency and accountability. It is 
particularly a pleasure to be with you here again on Sunshine 
Week, though it is, unfortunately, not as sunny as we would 
like.
    President Barack Obama recently said this is the most 
transparent administration in history, and I can document how 
that is the case. Really? Well, it depends on the 
documentation. The President has made progress on his major 
commitments to openness and, without question, there has been 
more proactive disclosures than ever before. Last week we 
issued a report with partners that highlight several of the 
best examples, such as agency posting staff directories and 
calendars online Ethics.Data.gov and Recovery.gov.
    But in spite of this progress under Obama, there continues 
to be two American governments. One looks like a democracy and 
the other is a national security State where claims of national 
security usually trump openness and accountability. An 
illustration of this dichotomy is on whistleblowers. More than 
any other president, Obama has advanced protections for federal 
workers who blow the whistle on waste, fraud, and abuse. But at 
the same time this Administration has created a national 
security loophole that threatens the very reforms the President 
supported.
    Likewise, his recent signing statement asserts limits to 
unclassified disclosures to Congress. You can't do oversight, 
and there won't be checks and balances, if the President is 
allowed to keep secrets from Congress. The Associated Press 
just found that claims of national security for withholding 
information under FOIA are at an all-time high for this 
Administration.
    In addition, we have objected to attempts to plug leaks of 
classified information that actually threaten free speech. We 
have raised concerns repeatedly about the aggressive 
prosecutions of so-called leakers and the chilling effect on 
whistleblowers. There continues to be far too much over-
classification of information, which undermines our legitimate 
secrets and makes them harder to keep. Then there are the 
secret legal opinions that, among other things, may justify the 
targeted killings of American citizens suspected of terrorism.
    What should be of critical concern to all of us is that the 
national security state is growing. The more it grows, the more 
illegitimate secrecy threatens our basic rights and our 
democracy.
    In the non-national security government, perhaps the 
greatest challenge is the lack of a proper entity with 
authority and an interest in making agencies improve their 
practices. Openness is mostly voluntary and without any real 
consequences for the agencies that fail. Generally, the Office 
of Information Policy at DOJ is thought to be the entity 
responsible for FOIA, since it issues guidance and plays a role 
in compliance.
    But as you have so aptly pointed out, there is a 
significant disconnect between its actions and the President's 
orders. We share your concerns about outdated FOIA regulations, 
backlogs, outrageous fees, the overuse and abuse of exemptions. 
However, in the end, we cannot reasonably expect OIP to lead on 
FOIA because it has an inherent conflict of interest, a 
conflict of mission, really. DOJ defends the agencies when they 
withhold information under FOIA.
    Clearly, it is time to consider a new model without such 
conflicts. Providing the FOIA ombudsmen, OGIS, with more 
independence and authority is one of several common sense next 
steps to improve FOIA in the very thoughtful legislation that 
Chairman Issa and Ranking Member Cummings have drafted. 
Mandating performance responsibilities, the creation of a chief 
FOIA officer's council, and the long overdue updates to FOIA 
regulations all will improve the status quo. Codifying the 
presumption of openness will ensure agencies run by future 
presidents cannot withhold information unless harm to an 
interest protected by the exemption can be identified.
    The pilot for FOIA online you propose will help boost the 
number of agencies participating and increase its potential for 
success. FOIA online is envisioned as a one-stop shop so that 
one day there might be only one Web site for all FOIA requests. 
The extraordinary initiative of three agencies that created it 
deserves applause, and your bipartisan bill deserves strong 
support.
    In addition, there are other bills from the last Congress 
we support, such as the DATA Act, which would dramatically 
improve the ability of the public to discover how their 
taxpayer dollars are spent. We urge you to work with the Senate 
to ensure the best reforms become law. We also like the grant 
transparency reforms, and we hope you will similarly advance 
transparency in contracting. Taken together, we outsource $1 
trillion every year.
    Additionally, we support the five sensible reforms, 
including the ranking member's Transparency and Openness in 
Government Act from the last Congress, including the FACA 
reform bill that was mentioned. I am pleased to hear that will 
be reintroduced by Representative Clay. Naturally, government 
spending is of real concern in this economic environment, but 
we hope you will work with appropriators to ensure the proper 
implementation of the reforms you champion. OGIS needs 
additional resources. Also, investing in government watchdogs, 
such as the very effective Office of Special Counsel, pays 
dividends to taxpayers.
    I also urge you to conduct vigilant oversight of the 
whistleblower and taxpayer protections you ushered into law, 
and to legislate to preserve and strengthen these, including in 
the intelligence and national security communities. It may be 
necessary to explicitly clarify that there should be no 
restrictions on executive branch disclosures to Congress.
    We need your leadership now to remain in the frivolous 
national security claims that are making huge swaths of our 
Government hidden and unaccountable, and I thank you very much.
    [Prepared statement of Ms. Canterbury follows:]

    [GRAPHIC] [TIFF OMITTED] T0143.001
    
    [GRAPHIC] [TIFF OMITTED] T0143.002
    
    [GRAPHIC] [TIFF OMITTED] T0143.003
    
    [GRAPHIC] [TIFF OMITTED] T0143.004
    
    [GRAPHIC] [TIFF OMITTED] T0143.005
    
    [GRAPHIC] [TIFF OMITTED] T0143.006
    
    [GRAPHIC] [TIFF OMITTED] T0143.007
    
    [GRAPHIC] [TIFF OMITTED] T0143.008
    
    [GRAPHIC] [TIFF OMITTED] T0143.009
    
    [GRAPHIC] [TIFF OMITTED] T0143.010
    
    [GRAPHIC] [TIFF OMITTED] T0143.011
    
    [GRAPHIC] [TIFF OMITTED] T0143.012
    
    Chairman Issa. And I thank you.
    Mr. Harper.

                    STATEMENT OF JIM HARPER

    Mr. Harper. Thank you, Chairman Issa, Mr. Cummings, members 
of the committee. I am very pleased to be with you about this 
issue in which I have invested a great deal of time over the 
last few years, and I am glad that you are doing so as well.
    I will start as you did, Mr. Chairman, with a note about 
bipartisanship. It is a pleasure to work on transparency 
precisely because it is a bipartisan issue; it is a 
nonideological issue. I take pains, whenever I am working with 
my liberal and progressive friends and with my conservative 
friends, to tone it down and I do my best; they tolerate me 
well, regardless of my ability to actually tone it down.
    Chairman Issa. It is the one time they want a libertarian 
in the room.
    Mr. Harper. Yes. It doesn't happen very often, so that 
makes this a true pleasure.
    If I could characterize the work we have done at Cato, it 
would be that we are trying to bring real methodology and 
measurement to transparency issues. Of course, not all issues 
are subject to that kind of methodology, but in the data are 
areas we have worked to model what legislative process would 
look like as data should look like as data; what budgeting, 
appropriating, and spending would look like as data. And then 
we proceeded to grade how well that data is published by the 
Government. In terms of authority, completeness, machine 
discoverability, and machine readability. These are the things 
that would make the data amenable to use on the Internet.
    The grades are relatively poor, and in my last, most 
recent, report, I found that the Obama administration was 
somewhat lagging the House in terms of transparency. Obama 
controls a great deal of the Government, obviously, and has not 
met the outsized promises that he made as a campaigner. 
Meanwhile, the House has taken steps in the area that it 
controls to move transparency forward, and we see more coming, 
and that is exciting good news.
    One of the things that really sticks out, though, in 
analyzing the quality of data published by the Government is 
that data reflecting the structure of the executive branch is 
essentially not available data. Data, a machine readable 
government organization chart does not exist. You would think 
that in this day and age, in an administration that has touted 
transparency, we would at least have, in computer readable 
form, the basic layers: agency, bureau, program, and project.
    If we had that, so many things we could hook to it. We 
could figure out how appropriations bills actually affect 
agencies before they are passed and the lower organizational 
levels. So the lack of a machine readable government 
organization chart is a point that I think is worth 
emphasizing.
    We are moving forward, regardless, to mark up legislation 
with semantically rich XML, code that will make available to 
computers more accurately, more completely, what is in the 
bills that you write. So references to existing law are marked 
up; budget authorities, both authorizations of appropriations 
and appropriations, are marked up. Behind me here I have some 
of the staff who have suffered through this project, and I 
certainly appreciate the work that they do.
    In addition, to the extent we can, we are marking up 
federal organizational units, the agencies and bureaus where we 
can. Lower organizational units we essentially can't. That is 
why I think the DATA Act is so important, because it would 
essentially require a data structure for all the spending in 
the U.S. Government; not only agencies, bureaus, programs, and 
projects, but obligations and outlays.
    With this data you can tell stories, you can tell the story 
about how a budget became an appropriation, which became an 
obligation, which became an outlay, which resulted in 
something, whether it be funding for the military in some 
respect, whether it be funding for some program that aids 
people in their health or well-being. The stories that could be 
made available to the public are nearly endless given data that 
reflect them well. So I think the DATA Act is an essential way 
of getting that transparency that makes available to the public 
what actually happens here in Washington, D.C.
    Starting tomorrow and on Friday, we are going to be moving 
ahead, having sessions on how to get legislative data on 
Wikipedia. We are doing a Wikipedia editathon to train people 
up. Everybody is welcome tomorrow afternoon at Cato. And then 
on Friday we are going to roll our sleeves up and see if we can 
make legislative data a tool for Wikipedians. I think Wikipedia 
is one of the places where people most often go to look for 
information, including information about public policy, and we 
are going to try to get legislative data up there as quickly as 
possible, and we will move to other areas as we proceed.
    Most importantly, I think, we are having a happy hour 
tomorrow night from 5:30 to 6:30. Everyone is also welcome to 
that.
    Chairman Issa. You could end on a high note, if you wanted, 
there.
    [Laughter.]
    Mr. Harper. I will bore you with a couple more thoughts.
    When I think about transparency and how to communicate 
about transparency to the public, I think about the newspaper 
and the number of facts per square inch that appear in the 
newspaper. Go to the sports page, look at the charts, look at 
the data for your baseball scores, hockey, whatever it may be; 
go to the financial section. Data. Lots of data that people are 
able to consume. The weather page is data, but when you go to 
the national page you get things like Republicans are girding 
for battle or Obama won't give in. That is essentially 
meaningless to ordinary people, ordinary citizens out in the 
land. They are able to consume data in other parts of the 
newspaper; they are able to consume data about public policy. 
So as soon as we can get it and give it out to them, we will 
move forward quite a bit in government transparency and a 
happier public, which is a thing that we all agree on.
    Thank you very much.
    [Prepared statement of Mr. Harper follows:]

    [GRAPHIC] [TIFF OMITTED] T0143.013
    
    [GRAPHIC] [TIFF OMITTED] T0143.014
    
    [GRAPHIC] [TIFF OMITTED] T0143.015
    
    [GRAPHIC] [TIFF OMITTED] T0143.016
    
    [GRAPHIC] [TIFF OMITTED] T0143.017
    
    [GRAPHIC] [TIFF OMITTED] T0143.018
    
    [GRAPHIC] [TIFF OMITTED] T0143.019
    
    [GRAPHIC] [TIFF OMITTED] T0143.020
    
    [GRAPHIC] [TIFF OMITTED] T0143.021
    
    [GRAPHIC] [TIFF OMITTED] T0143.022
    
    [GRAPHIC] [TIFF OMITTED] T0143.023
    
    [GRAPHIC] [TIFF OMITTED] T0143.024
    
    [GRAPHIC] [TIFF OMITTED] T0143.025
    
    [GRAPHIC] [TIFF OMITTED] T0143.026
    
    [GRAPHIC] [TIFF OMITTED] T0143.027
    
    [GRAPHIC] [TIFF OMITTED] T0143.028
    
    [GRAPHIC] [TIFF OMITTED] T0143.029
    
    [GRAPHIC] [TIFF OMITTED] T0143.030
    
    [GRAPHIC] [TIFF OMITTED] T0143.031
    
    [GRAPHIC] [TIFF OMITTED] T0143.032
    
    [GRAPHIC] [TIFF OMITTED] T0143.033
    
    [GRAPHIC] [TIFF OMITTED] T0143.034
    
    [GRAPHIC] [TIFF OMITTED] T0143.035
    
    [GRAPHIC] [TIFF OMITTED] T0143.036
    
    [GRAPHIC] [TIFF OMITTED] T0143.037
    
    [GRAPHIC] [TIFF OMITTED] T0143.038
    
    [GRAPHIC] [TIFF OMITTED] T0143.039
    
    [GRAPHIC] [TIFF OMITTED] T0143.040
    
    [GRAPHIC] [TIFF OMITTED] T0143.041
    
    [GRAPHIC] [TIFF OMITTED] T0143.042
    
    [GRAPHIC] [TIFF OMITTED] T0143.043
    
    [GRAPHIC] [TIFF OMITTED] T0143.044
    
    [GRAPHIC] [TIFF OMITTED] T0143.045
    
    [GRAPHIC] [TIFF OMITTED] T0143.046
    
    [GRAPHIC] [TIFF OMITTED] T0143.047
    
    [GRAPHIC] [TIFF OMITTED] T0143.048
    
    [GRAPHIC] [TIFF OMITTED] T0143.049
    
    [GRAPHIC] [TIFF OMITTED] T0143.050
    
    [GRAPHIC] [TIFF OMITTED] T0143.051
    
    [GRAPHIC] [TIFF OMITTED] T0143.052
    
    [GRAPHIC] [TIFF OMITTED] T0143.053
    
    [GRAPHIC] [TIFF OMITTED] T0143.054
    
    [GRAPHIC] [TIFF OMITTED] T0143.055
    
    [GRAPHIC] [TIFF OMITTED] T0143.056
    
    [GRAPHIC] [TIFF OMITTED] T0143.057
    
    [GRAPHIC] [TIFF OMITTED] T0143.058
    
    [GRAPHIC] [TIFF OMITTED] T0143.059
    
    [GRAPHIC] [TIFF OMITTED] T0143.060
    
    Chairman Issa. We now go to the other partner in this, 
Sunlight, Mr. Schuman.

                  STATEMENT OF DANIEL SCHUMAN

    Mr. Schuman. Thank you, Mr. Chairman, Ranking Member 
Cummings, and distinguished members of the Oversight and 
Government Reform Committee. I appreciate the honor and the 
privilege of speaking with you here today.
    At the heart of transparency is the idea that the public 
has the right to know what Government is doing. In our modern 
times, as Jim has alluded to, this means online and real-time 
in a computer-friendly format.
    While the Obama administration has made significant 
rhetorical strides towards a 21st century vision of 
transparency and has launched several innovative transparency 
initiatives, Government must do more to address the fundamental 
challenge of being transparent. It is my intention today to 
encourage this committee to continue its good works, to adopt 
the Administration's best initiatives, and to help encourage 
the Administration to meet its pledge to be the most 
transparent one ever.
    Let's start with federal spending transparency. A Sunlight 
Foundation analysis called Clear Spending found $1.55 trillion 
in misreported federal grant spending. The numbers just don't 
line up. This is the third year in a row we found a problem of 
this magnitude. We believe the Government should publicly track 
each federal dollar from the moment spending is proposed in the 
budget until it reaches its final destination.
    The Recovery Accountability and Transparency Board has 
shown us the way. How have they done so? By using unique 
identifiers to track who is spending, how much they are 
spending, and who gets the money; by demonstrating the 
necessity of an independent commission whose only job is fiscal 
transparency. As Angela mentioned, the importance of having 
independent commissions, independent bodies focused solely on 
transparency is something I cannot help but underscore. 
Finally, they have also released more information that allows 
data to be cross-checked.
    Now, the DATA Act will make all of this happen government-
wide, and I don't need to tell this committee that it should be 
speedily enacted into law.
    What the DATA Act does for federal spending transparency, 
the access to Congressionally Mandated Reports Act does for 
oversight of agency policymaking. Reports to Congress are a 
means to find out what agencies are actually doing. These 
reports should all be online in one central place.
    We also believe that advisory committees shouldn't be a 
stealthy way for special interests to influence the political 
process, and that sunlight should be shined on donors to 
presidential libraries who are snuggling up to future ex-
presidents. It is time for Congress to pass the Federal 
Advisory Committee Act amendments and the Presidential Library 
Donation Reform Act.
    There are several Administration initiatives that the 
committee should encourage and enhance. The White House's 
landmark Open Government Directive, which requires agencies to 
create and update open government plans, reduce FOIA backlogs, 
and release new data sets has yielded mixed results. Some 
agencies are still trying to wait out this transparency fad. 
The OGD contains good ideas and, to make sure they are fully 
implemented, they should be codified.
    New federal transparency Web sites such as Data.gov, 
USASpending.gov, and the IT Spending Dashboard are already 
changing Government. They should be moved out from under the E-
Gov Fund, which is intended for startups, and given a statutory 
basis and their own funding. For FOIA, we have seen smart 
initiatives like FOIA Online, proactive disclosure, and a 
presumption in favor of disclosure. These ideas should all be 
codified, along with the strengthening of the federal FOIA 
ombudsman and the incorporation of the Public Online 
Information Act, which ensures publicly available materials are 
online, and we applaud Chairman Issa and Ranking Member 
Cummings' new released draft legislation.
    The executive branch needs some encouragement from Congress 
on the following three issues: the rules covering White House 
visitor logs should be strengthened, codified, and stripped of 
their loopholes; all of the Department of Justice's Office of 
Legal Counsel opinions should be online, with only a few 
exceptions, not the two-fifths that we found were missing. It 
shouldn't require a 13-hour filibuster in the Senate to get an 
answer on one particular question. And the Office of 
Information and Regulatory Affairs at OMB isn't living up to 
its obligation to fully disclose when and how it is being 
lobbied on major rulemakings. This has gone on long enough.
    More work is needed on money in politics. The Lobbying 
Disclosure Enhancement Act, for example, would make sure that 
our transparency regimes cover people who act like lobbyists, 
but who don't meet the current law's arbitrary definition. And, 
finally, Congressional Research Service regularly distributes 
reports on matters of importance to national policymaking to 
the thousands of staffers on Capitol Hill, but these reports 
aren't systematically available to the public. They should be. 
We ask that the committee publish on its Web site all reports 
relevant to its jurisdiction.
    Transparency doesn't just keep our political system working 
properly; it gives people reason to have faith that our 
political system can work for all of us. I know the committee 
understands this and I thank you for the opportunity to speak 
here today.
    [Prepared statement of Mr. Schuman follows:]

    [GRAPHIC] [TIFF OMITTED] T0143.061
    
    [GRAPHIC] [TIFF OMITTED] T0143.062
    
    [GRAPHIC] [TIFF OMITTED] T0143.063
    
    [GRAPHIC] [TIFF OMITTED] T0143.064
    
    [GRAPHIC] [TIFF OMITTED] T0143.065
    
    [GRAPHIC] [TIFF OMITTED] T0143.066
    
    [GRAPHIC] [TIFF OMITTED] T0143.067
    
    [GRAPHIC] [TIFF OMITTED] T0143.068
    
    [GRAPHIC] [TIFF OMITTED] T0143.069
    
    Mr. Mica. [Presiding.] Thank you, Mr. Schuman.
    We will now hear from the last witness, Celia Wexler, the 
Senior Washington Representative for the Union of Concerned 
Scientists. Welcome, and you are recognized.

                STATEMENT OF CELIA VIGGO WEXLER

    Ms. Wexler. Representative Mica, Ranking Member Cummings, 
and members of the committee, thank you for inviting me to 
testify today and for holding this hearing during Sunshine 
Week.
    Our Union of Concerned Scientists has more than 400,000 
members and supporters throughout the Country. This 
nonpartisan, nonprofit puts rigorous independent science to 
work to solve our planet's most pressing problems. Our new 
Center for Science and Democracy is committed to promoting 
science and fact-based evidence to inform public policy 
decisions and enrich our democratic discourse. FACA reform 
reflects our longstanding commitment to improve scientific 
integrity at federal agencies.
    The Federal Advisory Committee Act is a lesser known, but 
valuable, tool in ensuring a transparent and accountable 
Government. It requires that when federal policymakers seek 
advice from outside experts and stakeholders, that the public 
is informed and has the opportunity to participate.
    Congress enacted FACA in 1972, after hearings exposed a 
system where more than 2,000 advisory Groups were offering 
guidance to federal officials in secret. In 1971, Senator Lee 
Metcalf warned that this secret fifth arm of Government 
threatened democracy. Information is the important commodity in 
this capital, Metcalf said. He warned about the influence of 
special interest groups who are not subject to rebuttal because 
opposing interests do not know about the meetings and could not 
get in the door if they did.
    The point of FACA was to change this corrupt system to 
restore to the public what Metcalf termed the two fundamentals 
of a democracy: disclosure and counsel; the rights of people to 
find out what is going on and, if they want, to do something 
about it. FACA did open up the system and allow more scrutiny, 
but the law needs to be updated and strengthened. It has been 
weakened by judicial decisions that have created loopholes, 
making it easy for agencies in executive branch to evade the 
rules and meet with outside groups in secret. And my written 
testimony goes into more detail about that.
    Too many FACA panelists also are evading conflict of 
interest groups. Experts with financial ties to the very 
companies that will be affected by a panel's recommendations 
often exert considerable influence on how agencies address 
vital issues like the safety of our drugs or the quality of our 
environment.
    This committee has been a pioneer in bipartisan FACA 
reform, and in the 112th Congress it unanimously approved H.R. 
3124, the FACA Amendments Act of 2011. And, as you know, this 
bill had substantive reforms that we heartily endorse and we 
urge you to build on the reforms that that legislation 
proposed.
    And we would hope that this committee will approve an even 
stronger FACA bill, one that will limit the number of 
conflicted experts on scientific and technical panels. We also 
urge you to begin the process to build a FACA for the 21st 
century, requiring the General Services Administration to help 
agencies use new technology to Webcast meetings; experiment 
with virtual meetings, which could reduce travel expenses; 
expand the pool of experts; and increase public participation.
    Like whistleblower protection reform, FACA reform has been 
discussed for years, but under your leadership, last Congress, 
the strongly bipartisan Whistleblower Protection Enhancement 
Act became law. We believe this committee can reach another 
transparency and accountability milestone this Congress with 
the enactment of a significant FACA reform law.
    We look forward to working with you on this crucial reform 
legislation and believe that under your leadership the 
prospects for bicameral, bipartisan success are bright. Thank 
you, and I look forward to your questions.
    [Prepared statement of Ms. Wexler follows:]

    [GRAPHIC] [TIFF OMITTED] T0143.070
    
    [GRAPHIC] [TIFF OMITTED] T0143.071
    
    [GRAPHIC] [TIFF OMITTED] T0143.072
    
    [GRAPHIC] [TIFF OMITTED] T0143.073
    
    [GRAPHIC] [TIFF OMITTED] T0143.074
    
    [GRAPHIC] [TIFF OMITTED] T0143.075
    
    [GRAPHIC] [TIFF OMITTED] T0143.076
    
    [GRAPHIC] [TIFF OMITTED] T0143.077
    
    [GRAPHIC] [TIFF OMITTED] T0143.078
    
    [GRAPHIC] [TIFF OMITTED] T0143.079
    
    [GRAPHIC] [TIFF OMITTED] T0143.080
    
    Chairman Issa. [Presiding.] Thank you.
    I recognize myself for a first round of questioning, and I 
will start with Ms. Wexler.
    FACA reform is something that we intend on marking up in 
the very short near future. One of the challenges I am facing, 
and it is right in your testimony, is that historically you try 
to limit conflicts, but as the pool of people in many of these 
areas become smaller and smaller, and I don't want to use the 
word revolving door because sometimes people misunderstand 
that.
    Getting people into government who have real world 
experience in things that hopefully are not always just funded 
by government in the way of science, and then getting them back 
into the real world and then still being able to use their 
expertise. Science is a good example, but so are our former top 
officers, military experts and so on.
    As we mark the bill up, should we have a bias toward 
limiting conflicts or disclosing conflicts? Because I will tell 
you I personally think that, in this day and age, it may be 
more a matter of making sure there are no hidden agendas 
possible as the better way to put together people who come in 
with a life of experience, but undoubtedly do have economic 
interests, or sometimes just pride of historic authorship? How 
do you feel about that?
    Ms. Wexler. Well, I think disclosure is the floor. We have 
to have disclosure. We have to know about these ties. We also 
feel that agencies have not basically done a very good job to 
expand the pool.
    Chairman Issa. The panel balance, if you will.
    Ms. Wexler. Exactly, and to really go out of their way to 
recruit non-conflicted experts. I can only tell you our 
experience at the FDA. The FDA has claimed that it is very 
difficult sometimes for them to fill panels with non-conflicted 
experts. We sent an email to our scientists. We have about 
20,000 scientists in our network.
    And in the course of a couple of weeks we got 61 applicants 
who were qualified to serve on FDA panels. They sent their 
curriculum vitae. They were not people who walked off the 
street; they had absolute essential qualifications. We screened 
those folks; we sent them to FDA; we heard not a word since.
    So I think there is this necessity to recruit from a larger 
pool.
    I also think that nothing in FACA would prevent 
presentations by those with the kind of real world experience 
you talk about. Presentations, answering questions, not 
necessarily being around for the discussion and the debate if 
the financial ties are significant. But I do think that we 
shouldn't give up on either goal.
    Chairman Issa. Let me go to Mr. Harper along that line. You 
mentioned sort of Wikiing things in a greater way. As you know, 
this committee used the Madison Project to try to do just that, 
to open up a dialogue on legislation. Ms. Wexler's comments, do 
those also resonate that when agencies, not just Web casts, 
their actual and store their actual hearings and forums, should 
we in fact view all these proposals and all of the science 
presented as the starting point for comment by, if you will, 
the professional world, people who Ms. Wexler just mentioned, 
61 people who were not included but who had the CV necessary to 
be meaningfully part of the markup?
    Mr. Harper. Yes, I think the ability of the public to 
contribute to discussion is probably unrecognized, or not well 
recognized in Washington, and it is natural that a group of 
agency officials who are trying to put something together, they 
have a limited sphere of knowledge about who their experts 
would be.
    Chairman Issa. The usual list of suspects, if you will.
    Mr. Harper. The usual suspects. So reaching out more 
broadly for FACA, for Federal Advisory Committee membership is 
a good thing to do, and then opening the activities of FACA is 
quite welcome.
    I served on one, the DHS privacy committee, and I was 
surprised, I think many of the members were surprised when we 
were doing email discussion that constituted a quorum, or would 
have constituted a quorum, and the members of the committee 
said let's just publish that. Because if you have a quorum you 
need to publish, right?
    And staff were essentially, well, no, we need to have less 
than a quorum so we don't have to publish. The membership of 
the committee was willing to put it out there for the public to 
consume and observe, and the agency staff, maybe because that 
was a whole new idea, weren't willing to do that. So sharing 
more broadly I think is always a good thing.
    Chairman Issa. Ms. Canterbury, you talked about the need 
for a new model. I was just at South by Southwest last weekend. 
Everybody there is a new model person. Almost everybody there 
is under 30 and they all see the things that we are struggling 
with, things like the DATA Act, as, my goodness, why isn't that 
already a given? Why is it it is hard? Why would anyone think 
of having data that is published in PDF so that it is 
inherently unreadable by machines, as Mr. Harper said? Do you 
see it the same way, that we shouldn't even any longer accept 
the concept that this is hard?
    Ms. Canterbury. Well, I think, unfortunately, it is because 
of the way that the Government acquires technology, because of 
in past investments and systems. So, for example, 
USASpending.gov, we spent quite a lot of taxpayer dollars 
trying to make that portal work for showing how the Government 
spends money, and it doesn't, and it was premised on antiquated 
systems.
    So your idea in the DATA Act of starting fresh with a 
better concept, I think we need to educate members and we need 
to educate the Government that these things can be done now at 
economies of scale.
    Chairman Issa. My time has expired, but would it surprise 
any of you to know that under the stimulus $800 billion or so 
spending, some States made a determination to create, if you 
will, a system in their accounting so that all of their 
reporting was essentially simply opening up to the Federal 
Government those portals necessary to see the tag metadata and 
pull it up. In other words, they did nothing but set their 
system up to be readable and, as a result, their reporting 
requirement went to zero. Does that surprise any of you that 
that kind of sunlight, if you will, was possible with those 
States that chose to do it?
    [No audible response.]
    Chairman Issa. It doesn't me either, but we plan on having 
some of those States in here so that we can begin thinking in 
those terms.
    I now recognize the ranking member for his questions.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank the witnesses for their testimony.
    Ms. Canterbury, the FOIA Oversight Implementation Act that 
Chairman Issa and I released yesterday would codify federal law 
in two very important revisions: it would create a legal 
presumption in favor of disclosure in response to FOIA 
requests. So let me ask you this. That was the standard under 
Clinton, is that right?
    Ms. Canterbury. That is correct.
    Mr. Cummings. And then it was reversed under Bush, is that 
right?
    Ms. Canterbury. Yes, sir.
    Mr. Cummings. And so now we are going back to that. And I 
guess you would prefer that, is that right?
    Ms. Canterbury. President Obama, as you mentioned, ordered 
a presumption of openness, and that was very welcome in our 
community. We would very much like to see that a part of the 
permanent law so that it is not a political decision or a 
decision based on the presidency, but the Congress can decide.
    Mr. Cummings. And how did that work under Clinton? I am 
just curious. That standard.
    Ms. Canterbury. I think it was a very good standard and I 
think it was a good start to the kind of reform that we are 
talking about today. But the bill that you propose takes some 
next steps that are really necessary to modernize FOIA.
    Mr. Cummings. Another thing that our bill does is to 
require records to be disclosed under FOIA unless agencies can 
demonstrate foreseeable harm. In 2009, Attorney General Holder 
issued a memo that rescinded the Bush administration policy. 
The Bush administration policy was for the Justice Department 
to defend agency decisions to withhold records ``unless they 
lack a sound legal basis or present an unwarranted risk of 
adverse impact on the ability of other agencies to protect 
other important records,'' is that right?
    Ms. Canterbury. That is right, and as it should be, sir.
    Mr. Cummings. And in 2009 Attorney General Holder raised 
the bar, instructed agencies that the Department will defend 
FOIA denials only if agencies reasonably foresee that 
disclosure would harm an interest protected by one of the 
statutory exemptions or disclosure is prohibited by law, is 
that correct?
    Ms. Canterbury. Yes, sir.
    Mr. Cummings. Ms. Canterbury, you said in your testimony 
that you agree with adding these provisions into the text of 
the FOIA law. Let me ask you this. If agencies are already 
required to do this under these administrative requirements, 
why is it important for Congress to put these provisions in the 
actual FOIA statute?
    Ms. Canterbury. Well, I would say that there is 
implementation and there is enforcement of the President's 
directive, which we have discussed a bit, the challenges and 
some of the drawbacks of not having an entity that actually 
does the enforcement, that has independence to pursue the 
agencies and ensure that they are promulgating a presumption of 
openness and using the foreseeable harm standard.
    So your bill will begin to strengthen the Office of 
Government Information Services in a way that could provide 
added independence, so we welcome that, of course. But also the 
difference between our experience with FOIA when there was no 
presumption of openness under the Bush administration, it was a 
more secretive government. It was much more difficult to get 
FOIA requests. So there has been a shift that is demonstrable, 
that is important; it is just that it hasn't been a shift as 
large as we might have liked.
    Mr. Cummings. In other words, in the words of the chairman, 
we can do better.
    Ms. Canterbury. Yes. We should.
    Mr. Cummings. Although I think he kind of took those words 
from me.
    [Laughter.]
    Mr. Cummings. That just hit me. It sounds familiar.
    In your opinion, will any of these provisions to the FOIA 
law change the way the Department of Justice is currently 
implementing these standards?
    Ms. Canterbury. Would your bill do that?
    Mr. Cummings. Yes.
    Ms. Canterbury. I think so. I mean, I think certainly 
mandating that the FOIA regulations be updated, finally, will 
ensure that we finally see a change in that respect.
    Mr. Cummings. Now, do any of the other witnesses have an 
opinion about whether these standards should be put into the 
FOIA law? Yes, Mr. Schuman.
    Mr. Schuman. They certainly should. There was just an 
Associated Press story yesterday which looked at 
implementation, APS number of national security and other 
related questions, and they simply weren't getting answers. And 
what we have seen in other contexts is that oftentimes agencies 
simply don't get the memo; they, for whatever reason, don't 
hear what the administration is saying. And if you put it in 
the law, well, they may not get the memo, but they certainly 
can read the U.S. code.
    Mr. Cummings. Ms. Wexler? I saw you shaking your head.
    Ms. Wexler. Yes, I agree entirely, and it is the same 
thing. Agency culture always kind of pushes back against 
transparency. And as Chairman Issa talked about, regardless of 
the administration that you are in, regardless of the political 
party, this wanting to be secret is a systemic problem.
    Mr. Cummings. Mr. Harper?
    Mr. Harper. Being a non-FOIA expert, I will just adopt the 
opinions of my colleagues.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Issa. Would the gentleman yield for a second?
    Mr. Cummings. Of course.
    Chairman  Issa. Would all of you say that it is fair that 
what we are really doing with the ranking member's bill is 
making a situation in which we are codifying the assumption 
that if you want to know, it is your right to know, rather 
than, prior to this President, if you wanted to know, you had 
to say why you wanted to know, that that would be the most 
significant permanent change by codifying President Obama's 
changes?
    For those who are familiar, that is pretty much what we are 
really doing with the bill, is making permanent that assumption 
that it is yours unless you can demonstrate why not, rather 
than, in the past, you had to sort of say why you wanted to 
know something that you didn't yet know.
    Ms. Canterbury. It shifts the burden to the agency to show 
that there is an exemption and there is an interest in 
withholding under that exemption.
    Mr. Cummings. I want to thank you very much.
    Chairman Issa. Thank you, Mr. Ranking Member.
    We now go to the gentleman from Texas, who was here at the 
very start, Mr. Farenthold.
    Mr. Farenthold. Thank you very much, Mr. Chairman. I just 
had a couple of quick questions.
    And just because I am a little bit of a techno geek, I will 
start with you, Mr. Harper. One of the Government's big success 
stories, I guess was founding the Internet, and it was done 
through a series of collaborations, RFC process where experts 
got together and came up with the standard that created the 
Internet today. Your push for machine readable data 
transparency, are we going to be able to structure that in a 
way people aren't going to be able to hide behind multiple 
legal entities and embedded entities, and is the Internet model 
of kind of going out and collaboratively coming up with a set 
of standards, would that be the way to do it, or do you think 
the Government or some outside organization could do those by 
themselves?
    Mr. Harper. Well, obviously, data structure is at a very 
different level than TCPIP, the basic language of the Internet.
    Mr. Farenthold. Right.
    Mr. Harper. And there is actually just a lot of heavy 
lifting. You identify corporate entities as being a challenge, 
and it is a genuine challenge. Who are the recipients of 
outlays? Well, many corporations have multiple subunits and 
they use different identifiers and so on and so forth, but we 
can at least get to where we use an open identifier system for 
the recipients of outlays, and that is an important goal for 
many of my transparency colleagues.
    Where I talk about identifying the agencies, bureaus, 
programs, and projects, they are as interested, more interested 
in the entities that are receiving the outlays, so they can 
tell stories about the recipients and how they affect the 
political process that might enhance their transparency.
    Mr. Farenthold. And you envision, perhaps, tying this into 
FEC donor data and the whole nine yards?
    Mr. Harper. Yes. I think of all the different sets of data 
as essentially tiles, and you want the tiles to sit adjacent to 
one another. So when you see that an agency or a particular 
program or project is involved, you want to know where the 
outlays went; you want to know who received the money; you also 
want to know what kind of campaign donations they gave so that 
there can be transparency in the relationship among spending 
and campaign finance. That is an important goal.
    Mr. Farenthold. And you think a lot of that can be 
automated if we can get the data in a machine readable format?
    Mr. Harper. I do.
    Mr. Farenthold. All right, great.
    Ms. Canterbury, let's go over to you a little bit and talk 
about I am going to call it the culture of secretism that is in 
the Government. I mean, several of our witnesses have spoke 
about that. Is the DOJ part of the problem in that their 
enforcement mechanism for it is different? I guess, from Texas, 
I am used to something different. Our open records and open 
meetings act, the attorney general is pretty aggressive about 
enforcing that and we lean towards disclosure.
    But when you get to the federal level, the amount of delays 
that we are able to, the agencies and then through the whole 
process, do you see any way we can change the culture? 
Specifically, the DOJ, particularly under Mr. Holder, this 
committee has struggled to get information out of him. I can 
only imagine what the public is having to go through.
    Ms. Canterbury. Yes, DOJ is a big part of the problem. I 
don't think that it is specific to this administration in that, 
as I mentioned in my testimony, there is a true conflict of 
mission there when you have the agency defending in court the 
other agency's right to withhold under FOIA, they will have a 
defensive posture, and you can see that defensive posture in 
their own rulemaking.
    So while they haven't updated their regulations in a very 
long time and, again, not leading in that respect on the 
presumption of openness, but when they proposed rules, we were 
really shocked because of the defensive posture in their own 
rules, the ways in which they would make it harder for 
requesters to get information and the way that they attempted 
to even make official a policy to lie to requesters in 
circumstances where they had investigative information that 
could not be revealed. So I think that there are some real 
problems with DOJ and, again, I think that one of the ways to 
deal with that would be go give an independent entity more 
authority to enforce FOIA.
    Mr. Farenthold. I remain concerned of growing government, 
so that is my issue, that we create another agency, another 
agency, and pretty soon you are talking real money.
    Finally, I am a supporter of the chairman and ranking 
member, support of the DATA Act. I am with them on that, but I 
want to ask you, as experts in the field, you all have looked 
at that. Are we missing anything obvious in that? Is there 
something, as it comes up, we need to be talking about? Are 
there any gotchas or, wow, if we didn't spend any more money, 
we could do this? Does anybody have any suggestion for 
improving it? Mr. Schuman.
    Mr. Schuman. If anything, the DATA Act solves some of the 
problems that you were mentioning before. For example, it would 
deal with the legal entity identifier problem, so you actually 
know who you are talking with. The DATA Act doesn't just have 
applicability for federal spending transparency, it has 
applicability for federal transparency at large.
    Mr. Farenthold. Okay.
    Ms. Canterbury. I would say the House version of the DATA 
Act is extremely comprehensive and I think hits the primary 
reforms that we would like to see. There are a handful that I 
cite in my written testimony, they are bulleted, and those are 
the things that I hope will, at a minimum, emerge from whatever 
compromise is necessary with the Senate.
    Mr. Farenthold. All right. Well, thank you all very much. I 
see I have gone a little bit over my time. I would like to 
apologize and yield back.
    Chairman Issa. No problem.
    And just before I go to Ms. Duckworth, the good news is 
that the Senate now is seeing the advantages of recipient 
reporting, so it is likely that the final passage would be a 
little closer to what went out of the House last time, or at 
least that is what we are discussing.
    Now we recognize the patient gentlelady from Illinois, Ms. 
Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Ms. Canterbury, the Open Government Directive instructed 
agencies with large backlogs of FOIA requests to reduce those 
backlogs by 10 percent each year. Yet, only 3 out of the 11 
agencies with more than 500 backlog requests met that goal in 
2012 and nearly 60,000 backlog requests remain in these 11 
agencies, again, falling short of the 10 percent goal. Why do 
you think agencies are struggling to reduce their backlogs?
    Ms. Canterbury. Well, I think some of the problems are 
bureaucratic and systems oriented, so there are some agencies 
that have really taken initiative, like at DHS, where they have 
prioritized streamlining their practices so that they have a 
system where they can prioritize requests coming in. So I think 
that that can work when there is a focus by the agency, but it 
takes leadership.
    Ms. Duckworth. You also mentioned the importance of 
watchdogs and for those offices within the Government that have 
watchdog responsibilities to receive adequate funding. I would 
be interested to hear your opinion about the expected impact of 
the sequestration on government transparency, especially with 
the capability of the watchdogs to do their jobs if they are 
going to be cut.
    Ms. Canterbury. I would like to say catastrophic, but I 
hope not, because I hope this Congress is going to deal with 
the need to address government spending in a different way. So 
I hope that those aren't permanent impacts. But our inspectors 
general, the Office of Special Counsel, both of those watchdog 
entities have received a large mandate to do more oversight and 
accountability work, in particular on whistleblower 
protections.
    So the very excellent legislation that the ranking member 
and the chairman advanced last year to protect federal workers 
means that the Office of Special Counsel has a lot more work 
coming its way and no additional funding for that work, and yet 
they have shown, under their new leadership with Special 
Counsel Lerner, that they are doing extremely effective work 
for the taxpayers.
    Also, the inspectors general now have responsibilities for 
the next four years to protect contractor and grantee 
whistleblowers who come forward, and we think this is going to 
do a huge amount to increase accountability in contracting and 
for grants. But, again, they receive no additional funding for 
that, although they did under the Recovery Act. It is important 
to note that they had additional responsibilities there.
    I think all of us would agree that under recovery there was 
a relatively small amount of waste and fraud because of the 
approach of having an accountability board and giving 
inspectors general more authority to protect whistleblowers, so 
working together, but they had additional funding to do so 
under the Recovery Act, so we need to do that for them.
    Ms. Duckworth. Thank you.
    Do any other members of the panel have any comments on 
adequate support or funding for whistleblower companies or 
agencies?
    Mr. Schuman. I would just add, and this is something that 
the chairman and the ranking member testified about before, I 
think it was the Committee on House Administration, the effects 
of the sequester, of course, on Congress are also significant. 
The legislative support agencies are having their funding cut 
significantly, as are committee staff, and your ability to keep 
and retain and pay the sufficient number and quality of people 
to do the work that is necessary for this Congress to engage in 
oversight is something that will be significantly affected by 
the sequester.
    Ms. Duckworth. Thank you.
    Mr. Harper?
    Mr. Harper. This is an example where I tone down my 
libertarianism, but I don't necessarily agree with my 
colleagues on the need for more funds. Thank you.
    Ms. Duckworth. Well, Mr. Harper, if there is an increased 
need through FOIA backlogs or there is an increased need for 
greater oversight, how do we do that without funding and 
providing the resources to do the oversight?
    Mr. Harper. Well, seeking out the path of least 
partisanship and ideology, hopefully the availability of data 
going to the deliberations management and results of agencies 
will reduce the need for FOIA inquiries. So I think FOIA will 
never go away, but I would like to see more proactive 
transparency on the part of agencies so that the FOIA requests 
go down in number and the need for resources will drop as well.
    Ms. Duckworth. Ms. Canterbury?
    Ms. Canterbury. I agree with that, but I would also like to 
disagree with my friend, Mr. Harper. We have friends who I 
think consider themselves libertarians and conservatives who 
agree that there are some parts of Government where it makes 
sense to invest, because when you invest in those watchdog 
entities, you return taxpayer dollars that would have been 
misspent otherwise.
    A great example of this is the huge success we have seen 
under the False Claims Act. Last year, 4 billion taxpayer 
dollars were returned because of the whistleblower incentives 
and protections that we have under that law. So it has been 
demonstrated and I think when you look at the budget of some of 
our watchdogs, I mean, the Office of Special Council has such a 
meager budget compared to so many others; they have 100 staff, 
and it is just not adequate.
    Ms. Duckworth. Thank you, Ms. Canterbury.
    I apologize to the chairman for going over my time.
    Chairman Issa. No, it was well spent. I might note that 
every time the IRS does an audit, statistically it actually 
gains us money, not loses us money. So to my friends, both 
libertarian and otherwise, that is one of the great questions, 
is do you cut something that has a net productivity; and the 
IGS, as you know, and we saw in the hearing last week, they 
have a net revenue gain through the work they do. I share your 
concerns that if you cut the people that actually reduced 
waste, you will get more waste and, thus, you will get less 
effective spending.
    Mr. Connolly. Would the chairman yield?
    Chairman Issa. Well, it is the gentlelady's time.
    Ms. Duckworth. I will certainly yield.
    Mr. Connolly. I was just going to add to what you were 
saying, Mr. Chairman. A subcommittee on this committee has 
looked at this very question and I am very concerned about 
money left on the table that is owed the U.S. Government but 
for resources at IRS to collect it. So I echo what the chairman 
has said; I think it is a smart investment.
    Chairman Issa. I thank both the gentlelady and the 
gentleman.
    We now go to the gentleman from North Carolina, who has 
been patiently waiting at the very bottom of the dais, for five 
minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    I wanted to follow up on something that was just shared. I 
think, Ms. Canterbury, you were sharing in terms of the 
legislation that is put forth, and you said it is very 
comprehensive in terms of what was put forth or recommended by 
the House. As we look to reconcile those, what would be the top 
three areas you would identify as areas of concern that we 
ought to be looking for as we identify those?
    Ms. Canterbury. Can I have six?
    Mr. Meadows. Sure, go ahead and have six.
    Ms. Canterbury. Okay, unique identifiers, data 
standardization, Treasury outlay data, real and frequent data 
quality assessments, and an independent board that will have 
the necessary independence and motivation to implement the DATA 
Act.
    Mr. Meadows. All right. So out of those six, which would be 
your very top priority?
    Ms. Canterbury. I think that some things can't come without 
others, so to sequence, there will need to be attention paid to 
the unique identifiers and the data standardization I think to 
lay the groundwork, and then the matching of the Treasury data 
and other linkages will be far easier to do.
    Mr. Meadows. All right. And you mentioned in your 
testimony, you talked about routinely the 20-day rule and how 
the responses are not adequate. I think there was only 8 out of 
100 agencies that responded with the requested information, and 
some of those, literally, it was a response that we have your 
request, that they felt like qualified that 20-day fulfillment. 
Can you characterize the problem over the last 10 or 15 years? 
Has it gotten worse? Has it gotten better? You spoke to that a 
little bit already, but, as we look at that, has it gotten 
progressively worse in terms of that response rate?
    Ms. Canterbury. I would say that it has gotten worse and 
gotten better depending upon the administration, but it is a 
continuing problem. There has never been a success under the 
20-day limit for any administration, and part of the problem is 
there really are no consequences for violating that. And as I 
mentioned in my written testimony, the agencies, and as you 
mentioned, like to send a letter and then that qualifies. If 
they send a letter saying, thanks, we got your request, we are 
working on it.
    And we disagree with that and our friends at the Citizens 
for Ethics and Responsibility in Washington do too; they 
brought a lawsuit against the Federal Elections Commission and 
the results of that will be very interesting. I think that 
agencies might actually come to Congress and ask for more time 
if they lose that suit. We would object and say that there is a 
way to do that in most circumstances and there is a way to 
extend under the law, as well. So I think moving away from the 
time limit would be a mistake but, rather, addressing what are 
your systems problems.
    Mr. Meadows. All right. And you mentioned the one thing, 
and I want to follow up on that, about penalties and 
enforcement, because we can pass all kinds of regulation laws 
and create agencies to do this, and without an enforcement 
mechanism nothing really changes. So there is the defer and 
delay kind of mentality that is pervasive within many agencies 
in Government. So what kind of penalty and enforcement 
mechanism, other than just strictly watchdog or overseeing, 
would you recommend?
    Ms. Canterbury. Well, I think that if the agency had to pay 
for its appeals, that might be a disincentive to delay and to 
deny in the firsthand, and then we have more than 50 percent of 
our appeals, the information is actually disclosed, and it 
should not require an appeal. It seems to for many agencies; 
you know you are going to make a request and then you will have 
to appeal to have a shot at getting the information. So if the 
agencies had to pay out of their own budgets, that might be a 
disincentive.
    Mr. Meadows. And did I pick up in your earlier testimony or 
response to the question that you believe that oversight of 
this particular request would best not be under the Department 
of Justice, just because of conflict of interest?
    Ms. Canterbury. That is absolutely right, sir.
    Mr. Meadows. Mr. Harper, you were saying earlier, in my 
last remaining questions, in terms of not needing money and the 
transparency of putting things on the Internet or where it is 
focused there, what percentage of requests do you think it 
might reduce if we had that kind of transparency? Or on a scale 
of 1 to 10, and let me make it easier, with 10 being the best, 
where would you rank that in terms of your recommendation 
there?
    Mr. Harper. It is a very hard question to answer seriously 
or honestly because there are some different types of FOIA 
requests. But I would guess that you might be able to cut FOIA 
by 50 percent, something like that, if there was consistent 
reporting of deliberations, management, results. There would be 
much less need for FOIA requests. They would still definitely 
be there, though.
    Mr. Meadows. All right. Thank you.
    I yield back.
    Mr. Duncan. [Presiding.] Thank you very much.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Let me thank the witnesses for their testimony and I will 
start with Ms. Wexler.
    You mentioned in your testimony that the GAO has found that 
agencies often improperly designate advisory committee members 
to avoid conflict of interest requirements. Agencies complain 
about the administrative burden imposed by these requirements. 
These requirements, however, are in place for a reason. 
Advisory committees provide recommendations on important issues 
such as drug safety, children's health, and national security; 
and if a committee member has a conflict, that member could 
influence government policy for personal gain.
    What is the danger of allowing a committee member to serve 
without disclosing a conflict?
    Ms. Wexler. Well, at the very least, the danger is that the 
conflict becomes part of the media reports about the 
deliberations, which we have seen happen repeatedly. So the 
public trust is shaken. Certainly, there have been situations. 
The world I know best is the world of FDA, where votes on drugs 
like Yaz and Vioxx and Bextra, a difference was made because of 
the conflicted members on those panels, particularly in the 
case of Yaz, a contraceptive later found to be quite harmful. 
So I think that there are real world problems with conflicted 
experts.
    There is also the larger problem when a vote is not 
necessarily effected. But a conflicted expert because what 
panels just generally strive for is consensus, so they operate 
more like juries than anything else. If you have somebody with 
a financial stake, with skin in the game, they are going to be 
very influential when it comes to making a difference, making a 
case for their point of view within these deliberations. Often, 
other panelists may not feel that they are as knowledgeable; 
they may look to this person, particularly if he has a lot of 
expertise, and expertise is something that comes with financial 
ties, we understand that.
    So that there are real dangers, both the real world kind 
and certainly in the terms of the loss of public trust.
    Mr. Clay. And I am sure that raises the antennas of 
stakeholders and other committee members who know what is going 
on. The Federal Advisory Committee Act amendments, which I am 
reintroducing today, would require that advisory committee 
members who are appointed because of their individual expertise 
comply with financial disclosure and other ethics requirements. 
Do you believe this clarification will help ensure that 
agencies don't allow members with conflicts of interest to 
avoid disclosing their conflicts?
    Ms. Wexler. Well, it will certainly help with the problem 
of agencies mislabeling special Government employees who do 
come under the Ethics in Government Act and representatives who 
are considered stakeholders and, therefore, their financial 
disclosure is not required. They are presumed, in a way, to 
advocate for a specific agenda. So to the extent that it 
clarifies that agencies must not use this kind of 
classification system to evade those kind of disclosure 
requirements, yes, it would be helpful.
    Mr. Clay. The FACA amendments also include a provision 
which was recommended in part by the Union of Concerned 
Scientists. That provision would require that agencies provide 
an opportunity for members of the public to suggest potential 
committee members. How do you believe public participation in 
the selection of advisory committees will reduce conflicts of 
interests on these committees?
    Ms. Wexler. Well, I think that it means that you are 
essentially engaging the services of the public to enrich the 
activities of agencies. Agencies often feel burdened about 
filling these slots on advisory panels, and I think sometimes 
justifiably so. So basically what you are saying is let's 
consult the public about experts we may not know about. It 
would diversify the pool; you would be much more likely to get 
people without financial ties because you would just go to a 
larger arena. It is a very good idea, I think.
    Mr. Clay. Mr. Schuman, any comments?
    Mr. Schuman. I agree with that. I also think that the 
provision in there that covers the subcommittees, which is one 
of the major loopholes, as you know, since, of course, it is 
your legislation. For the subcommittees, of course, oftentimes 
work is pushed down to that level so that there is no 
disclosure that occurs for meeting minutes, for records. And, 
relatedly, when we have looked at the federal advisory 
committees, we found that many of them have simply never held a 
public meeting. In the entire time that they have existed, they 
have never had a single public meeting.
    One thing that we spend a fair amount of time doing is 
looking through the FACA database that contains a list of all 
of the committees, all the meetings they have had, whether 
public or private, and all the members, and we have integrated 
that into a Web site that we have called Influence Explorer 
that allows you to see how organizations and entities that are 
lobbying on an issue, that are giving campaign donations on an 
issue will also try to place people on advisory committees and 
then, of course, those committees don't necessarily meet in 
public. So this is tremendous legislation and I think it is 
great.
    Mr. Clay. Thank you so much, Mr. Chairman. My time is up.
    Mr. Meadows. [Presiding.] Thank you.
    The Chair recognizes the gentleman from Kentucky, Mr. 
Massie, for five minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    In 2008, Bloomberg News had to file a lawsuit to force the 
Federal Reserve Responder Request to reveal the identities of 
the firms for which it had provided guarantees during the late 
2000s, during the financial crisis. Nearly three years later, 
and after considerable expense to the taxpayer and use of our 
court system, the Federal Reserve finally relented and 
disclosed those names. Should the Freedom of Information Act be 
updated to clarify unambiguously that the Federal Reserve is 
subject to FOIA?
    And anybody is welcome to respond to that.
    Ms. Canterbury. Yes, I agree. And I think that there are 
other loopholes. Of course, Congress is not subject to FOIA 
either.
    Mr. Massie. Mr. Harper?
    Mr. Harper. Yes, the Fed should be subject to FOIA. I will 
reserve whether Congress should be subject to FOIA because it 
is so very different from the federal executive branch.
    Mr. Massie. Mr. Schuman?
    Mr. Schuman. I would just say that we also see, whether it 
is the Fed generally or with specific aspects of legislation, 
there are oftentimes riders that are put into bills that work 
their way through Congress that create exemptions to FOIA, and 
we see this with spending by entities like the Fed or we see 
this with national security or with matters that are entirely 
unrelated to sensitive issues whatsoever, and we believe, and I 
think others do as well, that these attempts to create 
loopholes in FOIA are often too large or not appropriately 
vetted, and we think this is another issue that should go 
through regular channels within Congress to make sure these 
loopholes aren't put in a way that is either unintentionally 
large or defeats the purpose of FOIA.
    Mr. Massie. Ms. Wexler?
    Ms. Wexler. Yes. And I think that there are enough 
exemptions now in current FOIA law that I don't think we would 
have to worry about inadvertently disclosing through the 
Federal Reserve something that really legitimately should not 
be disclosed.
    Mr. Massie. So pursuing those sort of loopholes and 
exemptions, I am concerned, is there enough visibility into 
federal money after it gets, for instance, block granted to the 
States or when Congress otherwise passes federal dollars to 
municipalities or even private organizations to spend that 
money, do we have enough track of how that money is being 
spent, for instance, on agricultural subsidies or subsidies for 
insurance? Mr. Schuman?
    Mr. Schuman. The short answer is no. When you look at the 
data that is reported to the public, as our Clear Spending 
Report has found, it is unreliable. When you look at the new 
reporting that was required under the Recovery Act, what we 
found is it actually prompted States and localities to create 
transparency measures that they never had before. They started 
thinking about these issues in different kinds of ways and they 
actually became more open and accountable.
    But as things exist now, while some States do a good job, 
some States do a bad job, as a general rule you really can't 
follow the money all the way down. You can't see where it comes 
from, which is what Jim was talking about before in terms of 
how money goes through the legislative process in the 
appropriations and the obligation process, and you can't see it 
all the way to the end. That is why you need subrecipient and 
subgrantee reporting, which is some of the provisions that the 
DATA Act contains.
    Mr. Massie. Mr. Harper?
    Mr. Harper. I agree that there is not enough transparency 
in ultimate recipient information.
    Mr. Massie. Is or is not?
    Mr. Harper. Is not enough transparency in ultimate 
recipient information. You want to be able to see all the way 
through the process; agency, bureau, program, project, the 
obligation grant, the outlay, the recipient, the subrecipient. 
Just to be clear, or head off a concern people may have, you 
don't want to invade privacy. That is, if it is a benefits 
program, we are not talking about publishing the names of 
people who get Social Security checks or other public benefits. 
But when it comes to corporate entities or organizational units 
that receive outlays of Federal funds ultimately, we want that 
data.
    Mr. Massie. That is a good lead-in to my final question. 
Without violating privacy concerns, is there a role for more 
sunlight in disclosure for disclosing SSI and disability fraud, 
which we all know exists but is hard to get our hands around? 
Is there a role, is there a way to expose some of that fraud 
without disclosing personal data? Mr. Harper?
    Mr. Harper. I would say that you don't want to give 
transparency to personal information of recipients of SSI 
disability. The way you would probably want to do it is through 
data mining. There are probably common forms of fraud on these 
systems, and once you learn to recognize those frauds in your 
data, you can look for them happening again. Credit cards do 
this. When somebody spends $5 at a gas station and $5,000 at 
the Best Buy, that is them testing a credit card to see if it 
is still live so they can go buy electronics. That kind of 
pattern is the thing you might be able to see in SSI data.
    Mr. Massie. Thank you very much. My time has expired. I 
yield back.
    Chairman Issa. [Presiding.] I thank the gentleman.
    We now go to the gentleman from Illinois.
    Mr. Clay. Can I go again?
    Chairman Issa. No, you may not go again, not unless you 
want the gentleman from Illinois to chastise you.
    Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. We often 
accede to the request of the gentleman from Missouri, but we 
will go right ahead.
    Chairman Issa. If you have any time left over, you can give 
it to him, right?
    Mr. Davis. All right.
    Let me thank our witnesses for being here. I think this is 
a very important topic of discussion.
    Ms. Canterbury, under FOIA, an agency must waive or reduce 
the fees for responding to a FOIA request if a requester can 
show that disclosure of the records being sought will 
contribute to the public understanding of the operation of 
activities of the Government.
    The Associated Press published an article on Monday, ``U.S. 
Citing National Security in Censoring Public Records More Than 
Ever Since President Obama's Election.'' The article highlights 
the fact that the CIA denied every request for fee waivers in 
2012. According to the CIA's FOIA report, it received nine 
requests for waivers. It seems kind of difficult to believe 
that not one of those requests warranted a fee waiver. Does 
this raise any concerns in your mind?
    Ms. Canterbury. It certainly does. I think that you are 
absolutely right that it couldn't possibly be that only at the 
CIA there is no public interest in the disclosure. So it is 
part of the larger pattern that I mentioned in this national 
security state, where there is a real imbalance and 
illegitimate secrecy that is growing. So I think that it is 
important to look really carefully and I think for Congress to 
stand up and to not allow claims of national security to just 
blanketly cover what should be public, what Congress should 
have a right to. So I think that there needs to be far more 
oversight.
    Mr. Davis. FOIA also allows requesters to obtain expedited 
processing of a request if the requester can show a compelling 
need for a quick response. The CIA failed to grant a single 
request for an expedited FOIA response in 2012, although it 
received 33 such requests. Do you believe that there should be 
additional oversight into the CIA's denial of expedited urgent 
FOIA requests and fee waivers?
    Ms. Canterbury. Yes. I think they should be asked to show 
their justifications. I think also we have seen a problem with 
expedited requests. Now, these are requests when there is some 
urgent need based on health and safety issues or other 
concerns, so it is asking the agency to expedite that request, 
and yet, at the State Department, they have an average of more 
than 900 days in response to expedited requests.
    Mr. Davis. It seems as though there are some people who 
might think that the CIA should have a certain amount of 
exemptions because of the nature of their work and the nature 
of what they do. Do you still hold to your notion and your idea 
that, yes, they should be responding a bit more because this is 
information that the public should be aware of?
    Ms. Canterbury. Congressman, it seems that there is a sense 
of impunity. There certainly are legitimate secrets and there 
is intelligence work at the CIA which should be withheld, and 
there are adequate exemptions and exclusions under FOIA to 
allow for them to classify and keep our national secrets that 
are legitimate. However, fee waivers and delays in responding 
to requests do not comport with their practical use and proper 
use of the exclusions they have.
    Mr. Davis. Well, let me just say I agree with your 
assessment and I too recognize that there is information that 
must be kept secret in the arena of national security, but they 
also should be more forthcoming. My time has expired, so I 
thank you very much.
    And I yield back, Mr. Chairman.
    Chairman Issa. And I thank the gentleman for making that 
point about justice delayed is justice denied, as we all know.
    We now go to the gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman, and thank 
you for calling this hearing.
    Ms. Canterbury, I appreciate and agree with your testimony 
that secrecy has grown with the growth of the national security 
state. This committee has done some great work through all the 
various inspectors general, but I recall that a few months 
after 9/11 The Wall Street Journal had an editorial in which 
they noticed that every department and agency had sent up new 
requests based on security or national security, and The Wall 
Street Journal said a wise legislative policy from now on would 
be to give twice the weight and four times the scrutiny to any 
request that had the word security attached to it because we 
seem to excuse things that perhaps we shouldn't excuse just 
because they throw in the words national security.
    Mr. Schuman, I appreciate your endorsement of my bill on 
the Presidential Library Disclosure Act. I remember President 
Clinton, on his last day in office, pardoned Mark Rich, who had 
fled the Country to evade $40 million in taxes, and it turned 
out that was done just after his ex-wife had given a $400,000 
contribution to the Clinton presidential library. My bill would 
not restrict contributions in any way.
    I think there was some later information about a foreign 
government giving a contribution also in return for some 
favorable treatment, but it wouldn't restrict contributions, 
but it would at least provide for disclosure of contributions, 
and I think that is a very important thing and I think maybe we 
are going to take that up again here in a few days. It was 
passed by the House once, and passed overwhelmingly by a very 
large bipartisan vote.
    Ms. Wexler, let me ask you this. I heard what the chairman 
said about not using the words revolving door, and I understand 
his point that you don't want to limit these advisory 
commissions and keep people off who maybe have some good 
knowledge, but it seems to me that far too many federal 
contracts, almost all of them, seem to be some sort of 
sweetheart insider deal because all the Defense contractors 
hire all these retired admirals and generals, the big giant 
drug companies hire these former high level FDA officials, and 
it seems to go on in every department and agency.
    Do you think there should be, if not along with disclosure, 
maybe a requirement that these departments and agencies should 
be required to also include on these panels some people that 
definitely do not have these conflicts of interest, or they 
should be required to disclose if they give a contract to 
somebody that is a former high level employee? It seems to me 
there needs to be some sort of restrictions or limitations on 
this in some way.
    Ms. Wexler. Representative Duncan, I think the idea of 
mandating a certain number of non-conflicted experts on 
advisory panels is a wonderful idea. It runs the gamut, but too 
often we do have advisory panels doing important and 
substantive work, and too many members with financial ties to 
the entities that they review are on those panels. So I think 
the idea that you would sort of have a bar for including non-
conflicted experts makes a lot of sense.
    Mr. Duncan. Does your group, have they done studies of 
federal contracts and how many conflicts there are in all of 
those federal contracts?
    Ms. Wexler. No, we have not.
    Ms. Canterbury. Sir?
    Mr. Duncan. I think that would be something you should look 
into, possibly.
    Ms. Canterbury. We have done quite a bit of research on the 
revolving door as an issue of too much coziness between the 
regulated and the regulator, between those who are receiving 
Government money and those who are in the Government, and most 
recently we did a report on this issue at the Securities and 
Exchange Commission, where there is some information that is 
not easy to obtain but through FOIAs we were able to get more 
information than is available at other agencies about who was 
coming and going from the SEC. It is a particular problem with 
contracts.
    I think your suggestion is an excellent one. I think that 
showing the leadership there, it would be really probably not 
surprising to the American people to see how many people come 
in and out of government, so I agree with the chairman that 
transparency is a very good way to deal with that issue 
initially, and we have a long way to have adequate disclosure, 
but then also having some limits. It is reasonable. In many 
other contexts we have a cooling off period for Government 
employees, so I would suggest that we should have that in the 
context of contracts and also regulated entities as well.
    Mr. Duncan. Could I ask one last thing that would just 
require a one-word answer?
    Chairman Issa. The gentleman may have an additional 30 
seconds.
    Mr. Duncan. Is there anyone on the panel who thinks there 
is less secrecy now than when FOIA was passed in 1966?
    [Laughter.]
    Ms. Canterbury. Absolutely yes, there is less secrecy than 
in 1966, and part of that is a function of the technology that 
is available today, so a lot of the proactive disclosure that 
we are seeing is just something that was not possible in 1966, 
yet the concern of the national security state growing.
    Mr. Duncan. All right. Thank you.
    Thank you, Mr. Chairman.
    Chairman Issa. I never thought I would see so much silence 
on a question like that.
    We now go to the gentlelady from New York for five minutes, 
Mrs. Maloney.
    Mrs. Maloney. I thank all the panelists and I do want to 
comment on the project, Ms. Canterbury, on government 
oversight, which identified FOIA online as a best practice in 
the report you released last week entitled, Best Practices for 
Openness and Accountability. I was pleased to see that was a 
bill that I authored many years ago and to see that you support 
it, and also the work that we are doing with pilot projects on 
it.
    I wanted to follow up on Mr. Duncan's question. Members of 
Congress and our staff, there is a two-year cooling off period. 
I thought agencies had the same law, don't they? If you work in 
a high position in an agency, don't you have a revolving door 
requirement that you cannot go right back into that industry 
within two years? That was my understanding.
    Ms. Canterbury. There are various restrictions, 
particularly with regard to lobbying and particularly with 
regard to specific interests, so if it is something that you 
worked on personally or substantially. So there are many 
different ways in which people can evade having to have a real 
cooling off period. There are also waivers that are given by 
ethics officers on a regular basis, and those waivers are not 
made public in many cases.
    Mrs. Maloney. And following up on his other question about 
contracts being ``rigged,'' couldn't you just require that 
everything be competitively bid, and the low bidder who is 
qualified get the contract? Why do you have to have these 
negotiated contracts that have, shall we say, shadows on them?
    Ms. Canterbury. It has been a particular problem in our 
contingency programs, so our work in Afghanistan and Iraq there 
has been, as you know, a real dearth of competitiveness in 
contracts.
    Mrs. Maloney. Well, I tell you, I began this week by going 
to a company that was opening up in my district to combat 
cybersecurity, and cybersecurity, in my opinion, is the biggest 
threat to our homeland security, to our economic security, and 
we have to do something about it, and, Mr. Ranking Member and 
Mr. Chairman, we should have some hearings on cybersecurity and 
what we can do about it.
    But, in any event, there are stories that they are hacking 
into major corporations, stealing our intellectual property, 
hacking into the military, hacking into members of Congress. 
Could you each comment on what you think we could do to protect 
the privacy of our American firms and, really, American 
citizens from this ongoing threat?
    Ms. Canterbury. Just a word of caution on cybersecurity and 
those initiatives and finding a good balance between the need 
to have, obviously, more collaboration, more information 
sharing, a better system to prevent cybersecurity threats that 
are significant to our Country and to individuals. But that 
must be balanced with a real concern for privacy, civil 
liberties, whistleblower protections, and the people's right to 
know.
    So, like in other contexts that we have discussed today in 
the national security sphere, there is a knee-jerk reaction to 
then make secret anything that has to do with information 
related to secrecy, and the cybersecurity bills that were 
proposed in the last Congress, and the one that has just been 
reintroduced in the House, have an unacceptable level of 
secrecy and encroachments on rights.
    Mrs. Maloney. Well, I just want to say we have to find the 
balance. The real wealth of this Nation is the ideas of our 
people, our research. We had a meeting with NASDAQ and they 
were telling us that people are not only hacking into accounts 
and trading people's accounts, totally falsifying. It is out of 
control.
    So this is an incredible challenge for our Country and I 
think it should be something we can agree on, Mr. Chairman, 
that we don't like this hacking and we have to stop it, and I 
think this is one thing we could pass in this Congress if we 
could figure it out. So I would like to hear your ideas on it, 
on how we should go forward and what we should be doing.
    Mr. Harper. For my part, I agree with Ms. Canterbury's 
point about the privacy concerns that are evident in much of 
the legislation we have seen last year. For me, cybersecurity 
is really thousands of different problems that will be handled 
by hundreds of thousands of different actors over decades. We 
will never get to perfect security, just like we don't have 
perfect physical security.
    So what I think Congress could best do is really actually 
assign responsibility to the entities that can handle 
cybersecurity problems. So I don't think that the Federal 
Government should actually provide security for the private 
sector. When a business has failed to secure its own assets and 
it loses those assets, that is an illustration of poor 
management on the part of that business and that business 
should pay the cost.
    In general, with so much of our cyber infrastructure held 
in the private sector, it should be the responsibility of the 
private sector to secure those assets and it should pay the 
costs when it fails. Obviously, the Government has a good deal 
of information, being a large entity itself and a buyer of 
technology, so it has a role and it can foster cybersecurity 
and good cybersecurity practices, but I would place the onus on 
the private sector to secure its assets.
    Mrs. Maloney. Well, may I have an additional 30 seconds?
    Chairman Issa. Of course.
    Mrs. Maloney. And time for the other two to answer?
    Private firms want to secure their assets, and I am not 
saying that Government should. They should secure them; they 
just don't know how to do it. We don't have the technology to 
help our private sector or our Pentagon or our individual 
citizens to secure their information.
    Anyway, I would like to hear other ideas. Thank you so 
much; it is very helpful.
    Mr. Schuman. Just very briefly. So our colleague, Tom 
Blanton, often talks about the idea of the way we try to 
protect national security now is that we have a lot of secrets 
and we try to build a wall around them. But with so many 
things, it is very difficult to protect. What we need to do is 
figure out what is critical and protect that, and the other 
things that are less critical, it is not worth devoting the 
resources to and it runs into these problems.
    In terms of how to help the private sector, some of it is 
the same way. We look at government and we have government 
systems technologies that are 30 or 40 years old, where the 
system infrastructure isn't capable; where we have inflexible 
hiring practices, so it is difficult to bring in people who are 
capable and competent to handle these issues.
    Within Government we need to look at hiring, we need to 
look at being able to retain the best and the brightest. When 
it comes to the private sector we need to look at providing 
models, providing examples, showing private sector folks part 
of the way in which they need to protect themselves. It is not 
something Government can do for them.
    Mrs. Maloney. I have talked to some members of the 
military. They tell me the private sector is way ahead of us, 
meaning Government; that the private sector is doing a better 
job than we are. That was at a meeting where they were learning 
from the private sector how to better secure our situation and 
our information.
    Thank you.
    And Ms. Wexler?
    Ms. Wexler. You know, I agree with Mr. Harper and I agree 
with all of the panelists. I think this is a very important 
problem. It is going to take more than one way of solving it. 
Certainly, the private sector does have a responsibility to 
protect its own assets, but there is nothing wrong with the 
Government learning from the private sector as they develop 
innovative new ways to protect, nor is there anything wrong 
with the Government developing technology that can then be used 
by the private sector for the purposes of protection, but 
always with the idea that civil liberties and privacy are also 
respected.
    Mrs. Maloney. Thank you. I yield back.
    Chairman Issa. I thank the gentlelady.
    We now go to the gentleman from Illinois, Mr. DeSantis.
    Mr. DeSantis. Florida.
    Chairman Issa. Oh, I am sorry.
    Mr. DeSantis. Appreciate it, Mr. Chairman. We are enjoying 
some better weather now.
    Chairman Issa. We have been doing real well with Illinois 
on this side, but, yes, the gentleman from Florida.
    Mr. DeSantis. We have a better record with our teams in the 
World Series than Chicago does.
    Mr. Harper, from Cato's perspective, are you guys 
interested in transparency for transparency's sake? Well, I 
guess that is obviously good, but do you believe that more 
transparency will help actually reduce the size and scope of 
Government?
    Mr. Harper. I do. It is my belief that it will. When people 
see where the dollars are going, they will realize this can be 
better handled in our States, it can be better handled in our 
localities, or we can just handle it ourselves.
    Now, I characterize the transparency issue as sort of a bet 
between myself, libertarians, conservatives, and liberals and 
progressives because if transparency causes government programs 
to work better and it actually rings waste, fraud, and abuse 
out of programs, that is fine. I will take a better running 
government over a government that is large and failing.
    So that is how I view transparency as a pan-ideological 
issue. I do think that it will result in things that we want as 
advocates of limited government. But if I am wrong, I think I 
still win.
    Mr. DeSantis. Absolutely. In terms of the CFPB with Dodd-
Frank, have you looked at how effective FOIA or some of these 
other mechanisms will be? Because it seems like a lot of the 
financial information can be exempt. And then this is an 
institution that purports to not really be accountable to 
Congress and they have a different source of funding. I am just 
worried that this is an agency that is not going to be held 
accountable.
    Ms. Canterbury. We have done some work looking at the 
Consumer Financial Protection Bureau, and they have actually 
been a model for openness in different initiatives that they 
have had. They made meetings that they were having with outside 
interests, whether they were regulated interests or public 
interest groups like ours, they made all of those meetings 
public; they created a credit card complaints database that has 
been lauded as very helpful to consumers. So we really 
appreciated the amount of openness that they have there.
    We also have been concerned that they were required, 
essentially, to adopt the same confidentiality procedures and 
rules that you mentioned that are used by the other financial 
regulators in order to receive information, and this was 
something that we were made aware of when they were standing up 
the agency, and we have raised concerns about the extraordinary 
claims of confidentiality that are in financial regulated 
information. I think that it is an area of an overreach. There 
is really another system that is outside of FOIA and outside of 
classified information, so that if a company simply says I 
would like for this to be confidential, they are granted it.
    Mr. DeSantis. Great.
    Mr. Harper, in your testimony you talked about the grant-
making reform, how there was, like, a counter-argument about 
peer review, and you said that the transparency was more 
important. When I read that, and I hadn't been that familiar 
with this, to me, I didn't see that that was even a decent 
argument, but I probably don't know enough about it. So what is 
this argument about more transparency in the grant-making 
process will have negative effects on independent peer review?
    Mr. Harper. Well, the argument, and it is not my argument, 
but it is one I will try to give credit to. The argument is 
that peer review is often done anonymously, so colleagues who 
have professional relationships will review each other's 
papers, but do so anonymously so that they can speak their 
minds about the quality of research without threatening the 
professional relationship.
    So I take it that the argument is that if there is 
transparency as to who is doing reviews, then you are sort of 
upsetting longstanding traditions with regard to peer review. 
So that is a real issue; it is definitely something to think 
through. There might be a solution. I don't know the field that 
well, but there might be a solution where they use an 
identifier so that we can know that the same person did 500 
reviews in a year, to take an exaggerated case, but nobody 
knows exactly who that was.
    So I think there are probably ways of solving that problem. 
So it is a genuine thing to talk through, the balance between 
transparency and anonymity.
    Mr. DeSantis. And then just, finally, you mentioned the 
need for an organizational chart for the Federal Government. Do 
we know how many actual offices and agencies exist within the 
Federal Government? I guess where are we falling short? Why 
hasn't this been done so far?
    Mr. Harper. It is boggling to me that there isn't a machine 
readable Federal Government organization chart. We should be 
able to see what agencies exist, what bureaus exist, what 
programs, and what projects so that we can tie legislation to 
all those things when you in Congress are trying to effect 
something; so that we can tie spending to those things so we 
can know this happened because of a certain program in a 
certain bureau in a certain agency. That doesn't exist.
    There are at least four different representations of how 
the Government is organized. Each is different; each is 
published in PDF, so I can't use a computer on it. Now, the 
best we have is from NST, which produced a pretty darn good 
organization chart that just goes to the bureau level, just the 
simplest stuff, agencies and bureaus. That is what we are using 
for our legislative markup now, but there should be a complete 
Federal Government organization chart.
    Mr. DeSantis. Absolutely. Thank you.
    Chairman Issa. Would the gentleman yield?
    Mr. DeSantis. Yes.
    Chairman Issa. There is a story that I think says a lot 
from the private sector. Until a few years ago, taxi drivers 
would hear on a radio that there was somebody who wanted to be 
picked up at a certain address, and the most aggressive taxi 
driver would get it by saying I am right around the corner. As 
taxi companies began putting GPS systems in the taxis, they 
could figure out who was actually the closest and it 
dramatically changed the response to the consumer.
    I think, to a certain extent, the Government's willingness 
to have us actually be able to see what they are doing, versus 
the printed org charts that say what they say they are going to 
do, would probably be equally illustrative.
    Ms. Canterbury. I hope that improves safety on the roads, 
too.
    Chairman Issa. I think it has. As a taxi town where you 
just walk out and get one, we are not as aware of what it is 
like when you have to call for a taxi, but some of us are.
    With that, would the gentleman from Virginia seek to be 
recognized?
    Mr. Connolly. I would.
    Chairman Issa. I recognize you.
    Mr. Connolly. Thank you, Mr. Chairman. I knew you would. 
Thank you so much and thanks for holding this hearing, because 
I think it is a really important one.
    Let me pick up on my colleague's comments, the last 
questioner, on grants, because obviously the desire to have 
more transparency in the award of grants and to make sure that 
it is an open and competitive process is a legitimate concern. 
This committee considered some legislation previously called 
the Grant Act designed to do that, but I think it had some 
unintended consequences.
    Ms. Wexler, have you looked at that Act and does it, I 
think unintentionally, raise some flags for the academic 
community and for the competitive process itself?
    Ms. Wexler. Yes, that is true, and we understand the goal 
here, and the goal is commendable. Let me use the only analogy 
I can. When I have written a book; I have submitted my book 
proposal to the publisher, who has accepted the book. I do not 
want my book proposal to be part of the public record because 
it is the recipe I have for writing a book that is uniquely 
mine, that was a product of my imagination and my work.
    So I think what we want to make sure is that even for those 
grant proposals that are accepted by the NSF, by the National 
Science Foundation, that in the interest of transparency we 
don't violate someone's rights to intellectual property. I 
think that would discourage innovation and it would not work.
    I think it is very important, and I think we can manage 
this and work with this so that, I think you have suggested, 
abstracts would be available. As you know, there is an abstract 
database that the NSF has and it is pretty comprehensive. You 
look at those abstracts and they tell you quite a bit. I don't 
think we are ever going to get in a situation where the 
American public looks at a bunch of abstracts or even full 
proposals from the NSF and says, you know, this one is great 
and you should really not do this one.
    However, I do think that Congress has a legitimate 
oversight role here, and we would welcome working with you on 
ways to figure this out to ensure the intellectual property 
rights of those who submit proposals, as well as make sure that 
there is enough transparency for Congress to have the 
legitimate oversight role that it should have. As for the same 
thing of the identity of peer reviewers, that we be very 
careful about ensuring that no one particular grant is linked 
to any particular peer reviewer. Again, it is the whole notion 
of that person thinking that that identity will be revealed, 
may go easy on that applicant; may go hard, depending on their 
personal relationship.
    I think what we are most interested in is what Mr. Harper 
mentioned, really, the patterns. Are particular institutions 
being overly represented on peer review panels in general? Are 
particular professions over-representative; particular regions?
    Mr. Connolly. I am going to have to interrupt you because 
my time is short.
    Ms. Wexler. I am sorry.
    Mr. Connolly. But thank you, Ms. Wexler. I share your 
concern. I also hope we could work it out so that actually we 
can get at the goal here, which is transparency, more openness 
to ensure this fair competition without compromising 
proprietary information, intellectual property, and, frankly, 
without always showing some of our proprietary research to 
other watching eyes with whom we may not want to share that 
kind of scientific research.
    The Supreme Court had a ruling last year, the Milner 
decision, or in 2011, that significantly narrowed the scope of 
Exemption 2 in FOIA. Some in the IG community, particularly, 
have raised concerns that that decision may hinder certain 
critical operations, for example, with respect to FISMA. And 
the chairman has reintroduced a FISMA reauthorization I am 
proud to support, along with the ranking member, Mr. Cummings, 
and they have expressed some concerns that that would preclude 
the sharing of vulnerabilities in the Federal IT system among 
agencies.
    Ms. Canterbury and Mr. Schuman, I wonder if you want to 
comment real quickly.
    Ms. Canterbury. We don't always disagree; we often agree 
with the IG, but in this case we disagree. We think that they 
have the exemptions that they need to withhold the information 
that they must when they are doing the reports under FISMA. We 
have had conversations with them about this.
    Mr. Connolly. So you are not worried about Milner?
    Ms. Canterbury. Not with respect to their FISMA reports. 
There have been recent reports issued by inspectors general in 
response to FISMA which they were able to make redactions and 
also provide mostly public information.
    Mr. Connolly. If the chairman would just indulge just one 
brief, brief followup.
    Anyone concerned about Milner?
    [No audible response.]
    Mr. Connolly. No one. All right.
    Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    We now go to the gentleman from Michigan, Mr. Amash.
    Mr. Amash. Thank you, Mr. Chairman, and thanks to our panel 
for being here today.
    Ms. Canterbury, you brought up the cybersecurity bills and 
you mentioned CSPA. I don't know if you mentioned the name 
CSPA, but CSPA is the cybersecurity bill that was recently 
introduced. I view it as a tremendous threat to our Fourth 
Amendment protections because it is the Government subsidizing 
privacy violations, and it does this by providing immunity from 
liability for businesses and other organizations to share your 
personal data with the Government. And I wanted to ask you to 
elaborate and give your perspective, and anyone else on the 
panel as well.
    Ms. Canterbury. So I am not as familiar with the immunity 
aspects of the bill, that is not a particular area of expertise 
for my organization or for me, but our concern has been that 
there are overly broad and extensive statutory exemptions to 
FOIA and that those were not necessary but were perhaps just 
being provided to create assurances that really should be had 
by these entities under the law in any case. We are also very 
concerned that there be some sort of equity for the public's 
right to know, for civil liberties, for whistleblower 
protections so that there aren't encroachments on those rights 
with these new proposals.
    Mr. Harper. I have not read the new CSPA, though I read 
every single cybersecurity bill in the last Congress. I tried 
to swear off the reading of cybersecurity bills, but it looks 
like I will have to get back into it.
    What really, really stuck in my craw about nearly all of 
those bills is that in the area of information sharing they 
said, notwithstanding any other law, information sharing may 
happen. Well, that means that the Privacy Act of 1974 is out 
the window. That means that the E-Government Act is out the 
window. That means that your contract law, your State contract 
is out the window. That means tort law is out the window. The 
health information law is out the window; financial privacy law 
is out the window.
    So if the phrase notwithstanding any other law appears in 
the new CSPA, it is as bad as the old CSPA. And it is really 
offensive to me that because there might be some regulatory 
impediments to information sharing, Congress would come along 
and sweep aside all the law that exists, including all the laws 
that protect our privacy. So it stands out to me, CSPA does, as 
a real offense to privacy and to, frankly, good law making.
    Mr. Schuman. This isn't an area of focus for The Sunlight 
Foundation.
    Mr. Amash. Sticking to the topic of legislative 
transparency, I served in the State legislature in Michigan 
before I came to Congress and one of the things that I noticed 
when I arrived here was how lousy the bills were in the way 
they were written. Everything was cross-referenced as, you 
know, on page 7, line 6 of whatever act, insert such and such.
    So when I was in the State house, the way it worked was 
when you have a bill that amends existing law, you actually put 
the law in front of you and you cross things out and you insert 
things. It is like a Track Changes in Word. So I introduced 
recently the Readable Legislation Act, it is H.R. 760, and I 
wanted to get your perspectives on this, whoever might have an 
opinion on it, because I think it is very important that 
legislators know what they are voting on, they can read the 
bills and then the public can actually follow what we are 
doing. I think it would make us a lot more efficient as a 
Government.
    Mr. Harper. I have read the bill, and I could read it 
through and through and understand what it said, and that is 
important, and I think that is the essential goal of your 
legislation. And for the WashingtonWatch.com audience, a site 
that I run in my spare time, I actually showed an example, I 
took another piece of law, which is just a cut and paste law, 
it says section such and such is amended so and so, and I did a 
redline version of it and said this is what the law would look 
like under Mr. Amash's bill. Read the bill is a stand-in for a 
lot of demands of the public to understand what is going on in 
Washington, but taking it literally and having Congress write 
bills that are literally readable is an important and simple 
amendment to your process, so I recommend it.
    Ms. Canterbury. I agree with that; it is a very sensible 
approach and we support it.
    Mr. Schuman. The Sunlight Foundation actually wrote a 
little article called The Read The Read The Bill Bill, 
something like that. It was a terrible name but it emphasized 
the point that it is important to understand the legislation. 
And it is not just how bills would change the law, of course, 
but it is how amendments would change bills and how amendments 
would change other amendments, and starting to draw the 
connections, because it is not just how a bill would change the 
law, and it is very complex with the way that Congress engages 
in this, but it is also what are the bills that are identical 
or are virtually identical that existed in the same Congress or 
in previous Congresses, what are the other ideas that are along 
these lines that have happened.
    The more that you can wrap these things together, if we can 
say the axis to Congressionally Mandated Reports Act in the 
113th Congress is identical or virtually identical to the one 
from the 112th that had this hearing, all of a sudden you can 
create contextual awareness in a way that is not possible. And 
what you are trying to do with this legislation is spot on.
    Ms. Wexler. And I too support and have the experience of 
being a lobbyist in the New York State legislature and being 
shocked to see that I couldn't figure out the bills that I was 
reading here. I also believe that Congress is supposed to be 
under the mandate of the plain writing law, so we are supposed 
to be already reading bills that are a little bit easier to 
understand.
    Mr. Amash. Thanks.
    Mr. Chairman, I will be very brief. Mr. Schuman?
    Mr. Schuman. I will be very brief. There is also a related 
rule in the House that already exists, and there is one in the 
Senate, it is the Ramsey rule in the House, which is that 
reports that come out of committees are supposed to have 
basically Track Changes so you can see what has changed. This 
rule isn't always followed, not because folks don't want to, 
but because it is actually technologically difficult to do 
this. What you are proposing is extending it broader to all 
bills that are introduced and, again, it is an incredibly 
helpful thing to do.
    Mr. Amash. Thanks for your comments. I can say, again, from 
my experience, it makes a big difference to have the context of 
the bills. It makes us much more efficient as legislators and 
it allows our people at home to really follow what we are doing 
in a way that doesn't exist right now. So thank you so much and 
I yield back.
    Chairman Issa. I thank the gentleman.
    We now recognize the patient gentleman from Georgia, Mr. 
Woodall.
    Mr. Woodall. I thank you for the courtesy, Mr. Chairman, 
but I don't have any questions.
    Chairman Issa. Okay, then I will recognize myself for a 
closing quick round.
    This has been very, very important to me to try to hear 
some of the comments, particularly from questions including Mr. 
Amash's just now.
    Ms. Wexler, I want to make sure I understood in context. 
Grant applicants, that is an industry; I mean, people pay a lot 
of money to write good grants. You weren't suggesting that the 
prevailing grant is proprietary intellectual property, were 
you? I wanted to understand that.
    Ms. Wexler. I was suggesting that there are certain types 
of grants, proposals, for example, proposals submitted to the 
National Science Foundation, that do reflect the intellectual 
property of the applicant. I am not saying that that is the 
universe of all grants by any means.
    Chairman Issa. Because if I can put it in layman's terms, 
if I ask for a job and I submit you my resume, other than my 
Social Security number, wouldn't you say that my resume, if the 
Government hires you, to a great extent should be available? In 
other words, an honest review by those who would be critical of 
what was in there or, if you will, the right of the public to 
say, geez, how did this person get hired? Wow, they wrote a 
clever resume, one that might get me hired the next time. 
Wouldn't we be stepping up the game if we made at least the 
prevailing applications with appropriate redactions, but 
limited, always available?
    Ms. Wexler. I think the redactions would be difficult to do 
and would require on the part of something like the NSF to put 
a lot more manpower into it. What we don't want is to in any 
way violate people's own ideas and intellectual property before 
they are hatched.
    Chairman Issa. And I agree with you. You said before they 
are hatched, and maybe for everyone there I am making the 
assumption that we have granted the application, Federal 
funding has flowed to that entity. At what point would any of 
you believe that substantially all of that material belongs to 
the public for purposes of honestly figuring out whether or not 
we are spending that money properly? Ms. Canterbury? Because it 
is an important balancing act. We can all see it if I am 
applying, for example, to provide computers for the IRS, a 
current investigation of our committee. But when you get into 
science, often it becomes a little murkier. Do you see it as 
that difficult?
    Ms. Canterbury. No. I think we can solve this. I think that 
we do it within the context of proprietary commercial 
information that is not scientific. I think we can do it for 
science too. I think that Ms. Wexler had some good 
recommendations. I also think we should err and appreciate that 
the chairman and ranking member err on the side of 
transparency, but that you are also open to fixing areas where 
privacy or competition might be used against the entity that 
would be applying.
    Chairman Issa. And the current redactions are initiated 
first by the applicant, so I appreciate it is burdensome, but I 
don't think it is particularly burdensome for the applicant to 
know what they believe is most necessary to protect. So the 
first argument does appear as though it is not burdensome on 
the agency.
    Mr. Harper?
    Mr. Harper. Well, I guess I don't feel expert enough in 
this area to comment on specifics, but what you are talking 
about is striking a balance and a balance that deals with 
values: privacy, intellectual property on the one hand and 
transparency, the administration of taxpayer funds on the 
other; and I guess there are delicate balances to be struck 
here. I, like Ms. Canterbury, agree that, as you might expect 
on this panel, we would favor the transparency side of things.
    Basically, everything we are talking about in grant making, 
this is taxpayer money, so to the extent anyone thinks that 
there is a right to have taxpayer money, no. We can make it 
part of the deal that you have to share this information if you 
want to be a part of the grant.
    Chairman Issa. And one of the reasons that I am so 
concerned is that often what happens in IT development, in any 
other part of Federal dollars being spent is people come with 
proprietary information that was previously developed at the 
taxpayers' expense. They then proceed to get a new grant or 
contract at taxpayers' expense in which they then have yet 
another proprietary group that they can go and do it again.
    And the cycle of entities using taxpayer dollars to develop 
the ability to get taxpayer dollars, at some point you look and 
say, well, wait a second, the term crony capitalism is used all 
over the place, but I am very concerned sometimes with the 
pharmaceutical companies, sometimes with universities that we 
can in fact find ourselves constantly creating barriers to 
entry because you can only get through this barrier if you have 
already gotten the Government's money. And that is part of my 
concern.
    I want to do a couple more quick questions.
    Would you all agree that when it comes to, for example, an 
attack or a mining activity from China, North Korea, Syria, 
Iran, that in fact this is not the private sector's take care 
of yourself responsibility, but a classic, fundamental, 
constitutional responsibility of the Government to secure and 
defend for both our private and our commercial activities?
    In other words, in cybersecurity we all understand we have 
certain responsibilities, but my understanding is some of the 
most aggressive and most egregious piercing are done by some of 
the most advanced techniques not available to the normal hacker 
in a basement in Silicon Valley. Wouldn't you all agree that 
that is uniquely the Federal Government's primary 
responsibility, just as it would be if someone was coming with 
muskets to our border?
    Mr. Harper, let's go back to muskets and the border, if you 
will.
    Mr. Harper. Yes. So I think certainly when cyber attacks 
originate from overseas there is a Government role, but it is 
more along the lines of diplomacy. And I don't mean going and 
being friendly; I mean leaning hard on governments that are 
sponsoring or themselves committing cyber attacks or producing 
cyber weapons. We will have more to say on this.
    I have commissioned a paper from a guy who is younger and 
smarter than me to really handle the cybersecurity issue, but 
one of the unique problems or one of several unique problems in 
the cybersecurity area is attribution; you don't necessarily 
know where it came from. Once a form of attack originates, it 
can be propagated across the globe very quickly, so you don't 
know who is really responsible in the first instance.
    The response, as it should be in so many areas, should be 
phlegmatic. By that I mean measured, careful, calibrated, 
equivalent to the form of attack. So the thing that I think we 
should worry about most is the U.S. Government bringing all of 
its force in response to cyber attack, because cyber attack is 
relatively limited; it has limited ability to do physical 
damage. It can do real economic damage.
    There are definitely concerns here. Nothing I should say 
would be to dismiss the concerns, but we shouldn't respond to 
economic harms to our Country with physical harms to other 
countries. Let's not escalate and talk of cyber war. That 
phrase I don't like because it suggests escalating to physical 
war from the cyber snooping, the cyber espionage that is 
certainly going on.
    Chairman Issa. Well, as somebody who has an opinion on 
this, I will express it quickly. You don't go to kinetic war 
over cyber war, but you do respond in like, potentially.
    Ms. Canterbury, one question that I have for you, just as 
with the FOIA wanting to have an ombudsman, when we are looking 
at cybersecurity, do we need to have an ombudsman that is not 
behind the cloak of the Director of National Intelligence or 
the CIA when we are looking at balancing the commercial 
protection in cyber and the government protection?
    Do you, or any of you, see the inherent conflict of if we 
essentially say cyber will be taken care of by the very people 
who, quite frankly, probably are doing cyber attacks and spying 
on our adversaries using some of the same techniques, or do we 
need to have somebody who is not part of that game deciding 
whether or not the Bank of America or Chase Manhattan is 
protected by what we know or tipped off to what we know before 
there is an economic loss to we, the consumer?
    Ms. Canterbury. So I am not a cybersecurity expert.
    Chairman Issa. You better get up to speed. It sounds like 
it is the new issue.
    Ms. Canterbury. Well, except to say that it might not 
surprise you that my organization agrees that, in most cases, 
having independent oversight is going to produce better 
policies and a better public interest response.
    Chairman Issa. Anyone else?
    [No response.]
    Chairman Issa. Okay.
    Mr. Cummings?
    Mr. Cummings. Mr. Chairman, I just want to thank the 
witnesses for being here today. Your testimony has been 
extremely helpful. Thank you for shedding light on our 
legislation. We appreciate that.
    With that, Mr. Chairman, I yield back.
    Chairman Issa. Thank you.
    I will allow five legislative days in which to have 
additional comments made.
    Ms. Canterbury, you get the last word.
    Ms. Canterbury. Well, I just wanted to make a minor 
clarification. Congressman Connolly has already departed, but I 
wanted him to know that in our community, in response to Milner 
and the Supreme Court, the case that he cited, we have talked a 
lot about the impacts on FOIA, that court case, and we might 
agree that there is very, very limited information, 
specifically passwords to security systems, in the Government 
that may be a gray area. But I just wanted to clarify that.
    Chairman Issa. Okay.
    Ms. Canterbury. For the record.
    Chairman Issa. I appreciate that. You know, my Social 
Security number is probably more gettable than my passwords, 
and I am hoping it stays that way.
    I want to thank all of our witnesses. You have been 
excellent. Again, if you want to revise or extend, the record 
will be held open for five days.
    With that, we are adjourned.
    [Whereupon, at 12:09 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0143.081
    
    [GRAPHIC] [TIFF OMITTED] T0143.082
    
    [GRAPHIC] [TIFF OMITTED] T0143.083
    
    [GRAPHIC] [TIFF OMITTED] T0143.084
    
    [GRAPHIC] [TIFF OMITTED] T0143.085
    
    [GRAPHIC] [TIFF OMITTED] T0143.086
    
    [GRAPHIC] [TIFF OMITTED] T0143.087
    
    [GRAPHIC] [TIFF OMITTED] T0143.088
    
    [GRAPHIC] [TIFF OMITTED] T0143.089
    
    [GRAPHIC] [TIFF OMITTED] T0143.090
    
    [GRAPHIC] [TIFF OMITTED] T0143.091
    
    [GRAPHIC] [TIFF OMITTED] T0143.092
    
    [GRAPHIC] [TIFF OMITTED] T0143.093
    
    [GRAPHIC] [TIFF OMITTED] T0143.094
    
    [GRAPHIC] [TIFF OMITTED] T0143.095
    
    [GRAPHIC] [TIFF OMITTED] T0143.096
    
    [GRAPHIC] [TIFF OMITTED] T0143.097
    
    [GRAPHIC] [TIFF OMITTED] T0143.098
    
    [GRAPHIC] [TIFF OMITTED] T0143.099
    
    [GRAPHIC] [TIFF OMITTED] T0143.100
    
    [GRAPHIC] [TIFF OMITTED] T0143.101
    
    [GRAPHIC] [TIFF OMITTED] T0143.102
    
    [GRAPHIC] [TIFF OMITTED] T0143.103
    
    [GRAPHIC] [TIFF OMITTED] T0143.104
    
    [GRAPHIC] [TIFF OMITTED] T0143.105
    
    [GRAPHIC] [TIFF OMITTED] T0143.106
    
    [GRAPHIC] [TIFF OMITTED] T0143.107
    
    [GRAPHIC] [TIFF OMITTED] T0143.108
    
    [GRAPHIC] [TIFF OMITTED] T0143.109
    
    [GRAPHIC] [TIFF OMITTED] T0143.110
    
    [GRAPHIC] [TIFF OMITTED] T0143.111
    
    [GRAPHIC] [TIFF OMITTED] T0143.112
    
    [GRAPHIC] [TIFF OMITTED] T0143.113
    
    [GRAPHIC] [TIFF OMITTED] T0143.114
    
    [GRAPHIC] [TIFF OMITTED] T0143.115
    
    [GRAPHIC] [TIFF OMITTED] T0143.116
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
